<html>
<title> - INTERNATIONAL EDUCATION AND FOREIGN LANGUAGE STUDIES IN HIGHER EDUCATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



    INTERNATIONAL EDUCATION AND FOREIGN LANGUAGE STUDIES IN HIGHER 
                               EDUCATION

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON SELECT EDUCATION

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                    April 22, 2005 in Columbus, Ohio

                               __________

                           Serial No. 109-10

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-781                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON SELECT EDUCATION

                   PATRICK J. TIBERI, Ohio, Chairman

Cathy McMorris, Washington Vice      Ruben Hinojosa, Texas
    Chairman                         Danny K. Davis, Illinois
Mark E. Souder, Indiana              Chris Van Hollen, Maryland
Jon C. Porter, Nevada                Tim Ryan, Ohio
Bob Inglis, South Carolina           George Miller, California, ex 
Luis P. Fortuno, Puerto Rico             officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 22, 2005...................................     1

Statement of Members:
    Hinojosa, Hon. Ruben, Ranking Member, Subcommittee on Select 
      Education, Committee on Education and the Workforce........     3
        Prepared statement of....................................     5
    Tiberi, Hon. Patrick J., Chairman, Subcommittee on Select 
      Education, Committee on Education and the Workforce........     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Hills, Dr. Stephen M., Academic Director, Office of 
      International Programs, Fisher College of Business, The 
      Ohio State University, Columbus, OH........................    18
        Prepared statement of....................................    19
    Ladman, Dr. Jerry R., Associate Provost, Office of 
      International Affairs, The Ohio State University, Columbus, 
      OH.........................................................     6
        Prepared statement of....................................     9
    Nesbitt, Donna, Executive Director, Center of Curriculum and 
      Assessment, Ohio Department of Education, Columbus, OH.....    24
        Prepared statement of....................................    26
    Unzueta, Dr. Fernando, Director, Center for Latin American 
      Studies, The Ohio State University, Columbus, OH...........    13
        Prepared statement of....................................    15


 
    INTERNATIONAL EDUCATION AND FOREIGN LANGUAGE STUDIES IN HIGHER 
                               EDUCATION

                              ----------                              


                         Friday, April 22, 2005

                     U.S. House of Representatives

                    Subcommittee on Select Education

                Committee on Education and the Workforce

                              Columbus, OH

                              ----------                              

    The Subcommittee met, pursuant to call, at 2 p.m., in the 
Assembly Hall Auditorium, Fawcett Center, 2400 Olentangy River 
Road, Columbus, Ohio, Hon. Patrick J. Tiberi [Chairman of the 
Subcommittee] presiding.
    Present: Representatives Tiberi and Hinojosa.
    Staff Present: Alison Griffin.

STATEMENT OF HON. PATRICK J. TIBERI, CHAIRMAN, SUBCOMMITTEE ON 
   SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Chairman Tiberi. A quorum being present, the Subcommittee 
on Select Education of the Committee on Education and the 
Workforce will come to order. We are meeting today to hear 
testimony on international education and foreign language 
studies in higher education. I would like to formally thank Dr. 
Karen Holbrook and Ohio State University for hosting this 
hearing today. I appreciate the hospitality. I am really 
pleased to be here.
    I want to again thank Barbara Synder for her opening 
remarks and her officially welcoming us today. I know that her 
leadership is a critical factor in this university's success 
and as an alum I certainly appreciate that.
    I know we are both eager to hear our witnesses but, before 
I begin, I ask that unanimous consent for the hearing record 
remain open for 14 days to allow member statements and other 
extraneous material referenced during the hearing to be 
submitted in the official hearing record. Without objection, so 
ordered.
    Good afternoon and welcome. On behalf of the House of 
Representatives, Committee on Education and the Workforce, it 
is my honor to welcome everyone to my alma mater, Ohio State 
University, for today's hearing entitled ``International 
Education and Foreign Language Studies in Higher Education.''
    I would like to especially welcome and thank my friend and 
college, Mr. Hinojosa, for his participation in this field 
hearing today, and to our witnesses as well and thank them. I 
would also like to recognize The Ohio State University for 
hosting this first field hearing that this Subcommittee will 
have this year. We will be in Texas in a couple weeks in Mr. 
Hinojosa's district and we are looking forward to that.
    I have prepared a formal opening statement that I will 
submit for the record but just let me say in preparation for 
the authorization of Title VI of the Higher Education Act, we 
are here today to learn more about a variety of programs 
authorized and funded by and under Title VI.
    Continued Federal support for these programs reflects the 
significance and growing relevance of language and area 
studies, diplomacy, national security, and business 
competitiveness. I believe international studies are a national 
priority and we must encourage institutions of higher learning 
and higher education to be more responsive to this reality 
today.
    The reauthorization of Title VI presents the immediate 
opportunity to set an agenda for these programs as a strategic 
necessity that will appeal to congressional interest and 
congressional support.
    Today I would like to use this opportunity to gain more 
information about the various programs that are authorized 
under Title VI and learn about how institutions of higher 
learning and the general public benefit from the programs 
within Title VI. The Federal investment in these programs is 
significant and that is why we must ensure that the programs 
are fulfilling the purpose for which they were originally 
created.
    Thanks again to our distinguished panel of witnesses for 
their participation. I look forward to your testimony. One of 
the unique things about our Subcommittee is that both the 
ranking member and myself have very good experience with the 
international community. Mine having been my parents who 
immigrated from Italy, me being the first person in my family 
to graduate from not only high school but college, this being 
the college.
    The combination makes this experience of chairing this 
Committee and being on the Subcommittee very important, very 
relevant. I will say that my distinguished colleague has a 
wonderful story to tell of his own as well.
    At this time I would like to yield to my colleague from 
Texas, Ranking Member of the Subcommittee, my friend, 
Congressman Hinojosa, for any comments he may have.
    [The prepared statement of Chairman Tiberi follows:]

 Statement of Hon. Patrick J. Tiberi, Chairman, Subcommittee on Select 
          Education, Committee on Education and the Workforce

    Good afternoon, and welcome. On behalf of the House of 
Representatives Committee on Education and the Workforce, it is my 
honor to welcome everyone to my alma mater, The Ohio State University, 
for today's hearing entitled, ``International Education and Foreign 
Language Studies in Higher Education.'' I would like to especially 
welcome and thank my friend and colleague, Mr. Hinojosa, for his 
participation in this field hearing, and to our witnesses as well. I 
would also like to recognize The Ohio State University for hosting the 
hearing today.
    This subcommittee has jurisdiction over Title VI in the Higher 
Education Act, which provides federal funds to colleges and 
universities to support area studies, international education, and 
foreign language studies. Congress created Title VI in the National 
Defense Education Act of 1958 to address a sense of crisis caused by 
U.S. citizens' lack of knowledge of other countries and cultures. This 
program remains the federal government's leading mechanism for 
supporting programs that produce Americans with expertise in foreign 
languages and international studies, including international business.
    In preparation for reauthorization, we are here today to learn more 
about a variety of programs authorized and funded under Title VI. 
Continued federal support for these programs reflects the significance 
and growing relevance of language and area studies, diplomacy, national 
security, and business competitiveness. There is a great need for 
institutions of higher education to provide American citizens of all 
ages the opportunity to learn more about world languages, cultures, and 
international business. Today's integrated world and global marketplace 
underscores the importance of training these specialists who can 
provide assistance to the government, the private sector, and who can 
communicate across cultures on our behalf. In addition, we are more 
aware than ever that America's security needs require advanced 
international knowledge and effective foreign language skills.
    I believe international studies are a national priority and we must 
encourage institutions of higher education to be more responsive to 
this reality. Ignorance, misconceptions and miscommunications between 
cultures are serious concerns for our nation. The perception of Western 
culture in the Muslim world, for instance, is a great obstacle to 
intercultural understanding. Conflicts are sometimes ignited by 
insensitivity to local cultures and a lack of respect to national 
identities and customs. For these reasons, among others, we need 
colleges and universities to effectively provide students with a 
broader and deeper knowledge of foreign languages and cultures.
    Today, we want to gain more information about the various programs 
that are authorized under Title VI. I would like to use this 
opportunity to learn more about how institutions of higher education 
and the general public benefit from the programs within Title VI.
    Our success in heightening the interest of the federal government 
and encouraging private partnerships will require that we address the 
issue of outcomes. The federal investment in these programs is 
significant, and that is why we must ensure the programs are fulfilling 
the purpose for which they were created. The reauthorization of Title 
VI presents the immediate opportunity to set an agenda for these 
programs that encourages effective programs and innovative ideas. Our 
challenge is to frame these critical programs as a strategic necessity 
that will appeal to congressional interest and support.
    Thanks again to our distinguished panel of witnesses for their 
participation. I look forward to your testimony.
    At this time I would like to yield to my colleague, Ranking Member 
of the subcommittee, Mr. Hinojosa, for any comments he may have.
                                 ______
                                 

STATEMENT OF HON. RUBEN HINOJOSA, RANKING MEMBER, SUBCOMMITTEE 
 ON SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Mr. Hinojosa. Thank you very much, Mr. Chairman. I want to 
thank you for calling this hearing today in the great state of 
Ohio. I am delighted to have the opportunity to visit Chairman 
Tiberi's alma mater and would like to thank him and the 
university for the warm and cordial hospitality that they have 
shown me and my staff during this visit.
    I would like to commend The Ohio State University for its 
commitment to international education. The witnesses' written 
testimony paints a vivid picture of an institution of higher 
learning fully engaged in the international arena.
    I would like to take a moment of personal privilege and say 
that I, too, like the Chairman, come from Mexican immigrant 
parents who had 11 children and I happen to be No. 8 and we 
learned about the importance of education. We learned good 
working ethics and we both enjoy the work that we do in 
Congress as a result of that.
    I would also like to commend the university for its 
participation in the College Assistance Migrant Program known 
as CAMP. CAMP is a college program that supports the students 
of migrant and seasonable farm workers during their first year 
of college.
    The fact that The Ohio State University has sought to host 
a CAMP program speaks volumes to its commitment to expanding 
access to higher education.It is my understanding that further 
congratulations are in order. This year there are 20 new CAMP 
program students here at the university. Next year that number 
will grow to 27 as a result of those who have already signed 
up.
    The National Migrant Student of the Year recognized that 
the National Migrant Education Conference in San Francisco, 
California, is part of The Ohio State University CAMP program. 
That student, Jamie Gwahatival also hails from Texas in my 
congressional district and I tip my hat to the Buckeyes of Ohio 
for having such a wonderful student on your campus.
    As we know from world events, international education will 
continue to grow in importance for our economy, for our 
security, and our relationship with and understanding of the 
rest of the world.
    The New York Times columnist, Thomas Friedman, has just 
written a book titled ``The World is Flat.'' His thesis is that 
globalization is creating a world level playing field and that 
all of us are competing and interacting on a global level.
    Living on the U.S. Mexican border I have seen firsthand 
that what I am talking about is of great importance to us in 
Texas as it is to Ohio and the rest of our nation. Our area 
exploded with opportunities for the signing of the North 
American Free Trade Agreement. Today many of those border 
industries are facing stiff competition from China, from India, 
and other Pacific rim nations, as well as Central America and 
South America.
    I am pleased that we have this opportunity today to focus 
on international education programs funded under Title VI of 
the Higher Education Act. Our Subcommittee will take the lead 
in developing the reauthorization of the key international 
education programs.
    These programs include the International and Foreign 
Language Studies Programs that funds centers for area and 
language studies, the business and international education 
program that funds centers to promote the nation's capacity for 
international understanding and economic enterprise. It also 
funds the International Institute for Public Policy that is 
designed to prepare students from minority-serving institutions 
for careers in foreign affairs.
    I am particularly interested in ways that we can leverage 
the expertise of Title VI programs to inspire a new generation 
of internationalists. It is my hope that we can spark interest 
in foreign languages and international studies starting with 
our elementary and secondary school students and sustain it 
through their college careers.
    In closing, Mr. Chairman, I want to say that I am looking 
forward to hearing the testimony of the presenters and I thank 
them for being with us today. You have a great Congressman in 
Congressman Tiberi, an individual who is highly respected in 
Washington for the commitment and passion that he has for 
education in the workforce and the many Committees that he 
serves on.
    He talks about Ohio State University as the best in the 
world. I tell him that the University of Texas at Austin is not 
far behind. We have 50,000 students compared to your 60,000 and 
we will soon catch up with you.
    I look forward to the continued hearing that we are going 
to have and see what I can learn so that we can catch up with 
you.
    I yield back, Mr. Chairman.
    [The prepared statement of Mr. Hinojosa follows:]

   Statement of Hon. Ruben Hinojosa, Ranking Member, Subcommittee on 
       Select Education, Committee on Education and the Workforce

    I would like to thank the Chairman for calling this hearing today. 
I am delighted to have the opportunity to visit Chairman Tiberi's alma 
mater and would like to thank him and the university for the warm 
hospitality they have shown me and my staff during this visit.
    I would like to commend the university for its commitment to 
international education. The witnesses' testimony paints a vivid 
picture of an institution fully engaged in the international arena.
    I would also like to take a moment of personal privilege and 
applaud the university for its participation in the College Assistance 
Migrant Program (CAMP). CAMP is a program that supports the children of 
migrant and seasonal farm workers during their first year of college. 
The fact that The Ohio State University has sought to host a CAMP 
program speaks volumes to its commitment to expanding access to higher 
education. It is my understanding that further congratulations are in 
order. The national migrant student of the year, recognized at the 
National Migrant Education Conference in San Francisco, is part of the 
Ohio State University CAMP program. That student, Jaime Guajardo, also 
hails from San Juan, Texas--in my congressional district. I tip my hat 
to the Buckeyes!
    As we know from world events, international education will continue 
to grow in importance for our economy, our security, and our 
relationships with and understanding of the rest of the world. New York 
Times Columnist Thomas Friedman has just written a book, titled The 
World is Flat. His thesis is that globalization is creating a world-
level playing field and that all of us are competing and interacting on 
a global level. Living on the U.S. Mexican Border, I have seen this 
first hand. Our area exploded with opportunities with the signing of 
NAFTA. Today, many of those border industries are facing stiff 
competition from China and other nations.
    I am pleased that we have this opportunity today to focus on the 
International Education Programs, funded under Title VI of the Higher 
Education Act. Our subcommittee will take the lead in developing the 
reauthorization of the key international education programs.
    These programs include the International and Foreign Language 
Studies Program that funds centers for area and language studies, The 
Business and International Education Program that funds centers to 
promote the Nation's capacity for international understanding and 
economic enterprise, and the International Institute for Public Policy 
that is designed to prepare students from minority-serving institutions 
for careers in foreign affairs.
    I am particularly interested in ways that we can leverage the 
expertise of the Title VI programs to inspire a new generation of 
internationalists. It is my hope that we can spark interest in foreign 
languages and international studies starting with our elementary and 
secondary school students and sustain it through their college careers.
    I am looking forward to hearing your testimony and thank you for 
being with us today.
                                 ______
                                 
    Chairman Tiberi. Thank you, Mr. Hinojosa. Now you can see 
why he gets elected with wide margins in his district.
    We are really pleased to have the distinguished panel that 
we have with us today, witnesses. I, again, thank each of them 
for coming. What I will do is introduce all of you and then I 
will call on each of you to begin your testimony.
    Our first panelist, Dr. Jerry Ladman, is the Associate 
Provost for International Affairs and Professor in the 
Department of Agriculture, Environmental, and Development 
Economics at The Ohio State University. During his career Dr. 
Ladman has been involved in academic projects in the Dominican 
Republic, Bolivia, El Salvador, Ecuador, and Mexico.
    He has served as a consultant to the World Bank and the 
United States Agency for International Development, and 
currently sits on the Executive Committee of the National 
Association of State Universities and Land Grant Colleges 
Commission on International Programs. Thanks, Dr. Ladman, for 
being here today.
    Dr. Fernando Unzueta. Dr. Unzueta is the Director of the 
Center for Latin American Studies at The Ohio State University 
and Associate Professor and Department Chair in the 
university's Department of Spanish and Portuguese. His primary 
research interest includes 19th Century Latin American 
literature and culture and Spanish American literature and 
history. He is the author of numerous publications.
    He also is the Director of the Center for Latin American 
Studies. He administers the Latin American Studies 
Undergraduate National Resources Center and Foreign Language in 
area studies fellowships, a Title VI grant from the U.S. 
Department of Education. Thank you for being here, sir.
    Dr. Stephen Hills. Dr. Hills is the Academic Director for 
International Programs in the Fisher College of Business at The 
Ohio State University. In his position he administers Ohio 
State's Center for International Business and Research grant 
from the Department of Education.
    He is the author and co-author of numerous books and 
articles on international business, the labor market, and 
public policy, and has lectured at universities in Russia and 
China. Thank you for being here.
    Ms. Donna Nesbitt. Ms. Nesbitt currently serves as the 
Executive Director of the Center of Curriculum and Assessment 
at the Ohio Department of Education. In this position she 
coordinates the Department's international projects including 
agreements with sister states in China and Japan.
    Over the course of her career she has cultivated an 
expertise in Social Studies, been involved in projects in 
Russia, South Africa, Germany, and Japan, and served as 
Director of the Ohio Global Institute. Prior to joining the 
Department Ms. Nesbitt taught school in Ohio for 24 years.
    Before the panel begins I would ask that each of our 
witnesses today please remember that they limit their 
statements to around 5 minutes and just a reminder that your 
entire written statement will be included in the official 
hearing record.
    With that, I would like to recognize Dr. Ladman to begin 
the testimony. Dr. Ladman.

STATEMENT OF DR. JERRY R. LADMAN, ASSOCIATE PROVOST, OFFICE OF 
 INTERNATIONAL AFFAIRS, THE OHIO STATE UNIVERSITY, COLUMBUS, OH

    Dr. Ladman. Thank you, Mr. Chairman. Welcome, Mr. Chairman 
and the Ranking Member, to The Ohio State University. My task 
today is directed to talking about the importance and impact of 
the legislation. My written testimony covers considerable 
material dealing with need which is a very important reason for 
the importance. Both of you have indicated that quite well. I 
don't think I will go over that.
    But I would like to focus my comments more on what was 
suggested by you. That is to say, we can see what the impact of 
this legislation has been on a university like The Ohio State 
University which, I think, is somewhat typical of many of the 
land grant universities in the United States.
    Before I say that, the legislation that you mentioned 
before for the area studies programs, the foreign language 
programs, the CIBER programs, and so forth, is spread over the 
whole United States.
    For example, in the National Resource Centers there was 121 
National Resource Centers dealing with area studies and 23 more 
that had the opportunity to offer the foreign language and area 
studies fellowships. These are spread on 27 different states 
plus the District of Columbia. There are 30 CIBERs in 22 
different states and we have 14 National Foreign Language 
Resource Centers.
    Ohio State has been very fortunate in having each of these 
different units represented on the campus with Title VI 
support. To begin, I would like to talk about the impact 
perhaps measured in terms of numbers and then I would like to 
continue with what I consider to be probably even a more 
important impact in terms of what it does for the university in 
our capacity to train the students that you are so interested 
in training and to carry out our outreach programs to the 
community.
    My colleagues will follow up with some of the details and 
the larger picture at Ohio State. We have three centers right 
now with Title VI funding, Latin America, Middle East, and 
Slavic and Eastern European.
    Of these three centers, which are three of the five we have 
in the period of 203, 204, 193 different faculty members that 
were affiliated with those three centers, 169 different events 
that took place in the academic year on the campus that year. 
We offered 633 language and area study courses that serve some 
32,000 students, and we contributed to 31 different study 
abroad programs which served 353 students.
    One of the most important parts of the programs is the 
ability to train graduate students more intensely in language 
and we offered 59 fellowships that year and many of these 
students were taking what you call less commonly taught 
languages, lectals as they are commonly referred to. This is 
very important because at Ohio State University we have a wide 
variety of these less commonly taught languages to offer and 
they are very popular among our students.
    I mentioned our outreach program as being very important. 
We are very proud in particular of our P-12 outreach program 
reaching in this particular year these three centers alone over 
4,000 students and over 1,000 teachers through 38 different 
training workshops and seminars for the teachers.
    In addition to that we held some 12 events for the 
communities, seven for the business community, and also to our 
local and state government several different events that helped 
them become better informed about international activities. 
That's the area studies. Dr. Hills will tell you more about the 
CIBER program.
    Let me tell you about another very important program that 
is not included as a witness today but is very important to our 
campus and that's the National East Asian Languages Resource 
Center. This center was established in 1997 under the Title VI 
and it has quickly been recognized as a leading program in the 
United States in pedagogy dealing with teaching and learning of 
East Asian languages.
    They have published during this period of time nearly 300 
books. I just learned this morning that yesterday Dupont 
ordered 18 copies of the book of ``How to Deal with Language 
and Culture in China'' that was published by the center which 
tells you the type of reach it has to the business community.
    Last year at an international competition in Beijing 80 
people from 63 countries came to Beijing to compete in language 
proficiency competition. I am proud to say that an Ohio State 
student won first prize. A second student was in the top seven 
so we feel we are doing quite well in this particular area. 
This is a very important part of our program in terms of our 
language capacity particularly in that part of the world.
    Now I want to address the concept of the leveraging or the 
capacity building because I think one of the most important 
things that Title VI does it allows us to take the funds that 
are provided by the Federal Government not only to put on these 
programs that we do during the year which, by the way, I should 
say we do in combination with other units on the campus. We 
take $500, they contribute another $500 and we get $1,000 worth 
of programming. That is what I mean by leveraging on an annual 
basis.
    But even on the longer run we do this from the point of 
view of building capacity. For example, speaking from the point 
of view of a campus, if a center gets Title VI status, it 
immediately gives it legitimacy and presence on the campus 
which means that other units on the campus call us around that 
to bring their resources and talents to that. That is very 
important.
    One of the things that we most importantly do is develop 
new courses. We see those courses being with Title VI money but 
then, after that, the particular department picks up the course 
and carries it on into the future. This is the way we get 
going.
    Now, when Title VI first came to our campus in 1964 with 
the Slavic and Eastern European Center, there were six language 
courses taught on our campus. Now we offer 38. Most of those 
courses were developed because of the presence of Title VI 
centers that encouraged that development over time.
    The same could be said about bringing faculty to the 
campus. We need faculty to teach the courses. We develop the 
expertise. One of the reasons they come to our campus, new 
hires, is because of the presence of Title VI.
    We had on the campus a very large number of faculty who 
contribute to the international mission. In addition to that in 
this leveraging thing, there's a lot in terms of program 
development. We had a Title VI Center for International 
Studies.
    That center no longer exists but there is a very important 
remnant of that center and that's our International Studies 
Undergraduate Program. We have over 500 majors in that program 
and Angela is one of them we are very proud to say. But, 
anyway, that program is expanding and growing and we get some 
of the best freshmen enrolled in that particular program.
    In addition, the presence of the East Asian Study Center 
that I mentioned was very important in helping us bring to the 
campus another important language program by the Department of 
Defense under the NESP program for Chinese languages and so 
forth.
    I could go on, the library capacity, etc., but, anyway, it 
has made a very important contribution.
    [The prepared statement of Dr. Ladman follows:]

    Statement of Dr. Jerry R. Ladman, Associate Provost, Office of 
     International Affairs, The Ohio State University, Columbus, OH

    Chairman Tiberi and other members of the Subcommittee, I want to 
express my appreciation to you for holding this hearing dealing with 
the importance of international education. It is especially pleasing to 
have the opportunity to discuss this not only in a national context but 
also to tell you how important international education and foreign 
language training is for institutions of higher education, such as The 
Ohio State University, in fulfilling our international mission. To 
begin I would like to put the need for international education into the 
current context, then to show the role of federal support, and finally 
to indicate the importance and impact of these federal programs on 
campuses, such as at Ohio State, in fulfilling our international 
mission.
    The phenomena of commerce and immigration across international 
boundaries have been on-going ever since those boundaries were 
established. There is no question, however, that the pace quickened 
rapidly in the last half of the 20th Century and especially in the last 
few decades with the diffusion of satellite technology and high-speed 
information technology, such that there is almost instantaneous 
dissemination around the globe of all manner of information, whether it 
be personal, newsworthy events, cultural, financial markets or business 
production or inventories. Indeed, the term multi-national corporation, 
which was in such vogue some forty years ago, is almost archaic, as it 
is generally understand that businesses around the world have become 
inextricably linked in production, marketing and finance. As a result 
of the technological advancement the peoples, countries and cultures of 
world are increasingly and rapidly become much more close knit. Such a 
world requires that societies be much more aware and understanding of 
each other, their similarities and their differences. This need is 
brought home to us almost daily as we assimilate the news about 
internal ethnic or political conflicts within countries and try to 
understand them in the context of their local cultures. We now know 
that national security is not just about armed forces and military 
hardware, but also it depends on an intimate understanding of other 
societies, their cultures and their languages. International relations 
have become more complex and there is increasing recognition that 
nations must work together to deal with issues, such as pandemic 
diseases and climate change, that do not recognize borders. These 
phenomena require that our country train more professionals who have 
the in-depth knowledge of the different foreign countries, their 
societies and cultures as well as the ability to function well using 
their languages. Moreover, there is another pressing and broader need 
to expand and enhance the understanding of international matters and 
other countries among the general population.
    There is no doubt that our nation's colleges and universities have 
the moral responsibility to prepare their graduates to be able to 
function well in this increasingly globalized world, both as 
professionals and as informed citizens. As stated above, on the one 
hand there is a need to train specialists who have in-depth knowledge 
of other countries in terms of their culture, history, economy, 
political systems and international relations. These persons must also 
be competent in the languages of these countries, which in many cases 
are the less commonly taught languages that are not offered regularly 
or widely among our institutions. On the other hand, it is important 
that the colleges and universities provide all of their students with 
sufficient international content coursework and experiences so that 
they, too, even though they are not trained as specialists, can 
function effectively in their chosen careers and as citizens in the 
globalized world. For both of these groups of students, the Federal 
Government's Title VI Program plays such an important and invaluable 
role.
    As is often the case it is specific events that drive the federal 
agenda. After fighting two World Wars and returning to a desire for 
isolationism, the rise of the Cold War caused us to become acutely 
aware of the need to have professionals and our citizenry trained in 
understanding of other countries, their languages and their cultures. 
In 1958 and after the Soviet launching of Sputnik, Title VI was created 
through the National Defense Education Act and was administered by the 
Department of Defense. At that time the emphasis was on foreign 
language training, and special funding was made available for 
fellowships for this purpose. In 1961 with the passing of the Mutual 
Education and Cultural Exchange Act (Fulbright-Hays Act) the scope was 
expanded to include cultural, educational and technical exchange 
activities as well as to strengthen education in the fields of foreign 
languages and area studies in the American educational system. That 
same year Title VI was transferred to the Department of Education. In 
1986 a new section to the act was added to provide funding for a small 
number of national language and resource centers to improve the 
capacity for learning and teaching foreign languages. In 1988 the 
Centers for International Business Education Program (CIBER Program) 
was added to better prepare business students with international 
business skills and foreign language training. Now, with 57 years under 
its belt Title VI has been a most successful mechanism for training 
specialists with strong language capabilities in area and international 
studies.
    As was Sputnik and the Cold War, the events of September 11, 2001 
were another milestone event. Probably nothing in our nation's history 
has indicated to the population at large how important it is to have 
numerous professionals within the public and private sectors who are 
trained in area studies and foreign languages, especially less-commonly 
taught languages, such as Arabic, Urdu, Hindi, Pashto, and Tajik. 
Whereas it is obvious that this is important for matters of national 
security, it is also generally recognized as important for the United 
States in business and other matters. Following this tragic event the 
Federal Government has responded in several concrete ways. There have 
been annual joint declarations by the Secretaries of Education and 
State for the celebration of a National International Education Week, 
which underlines the importance of this component of the curriculum 
across our schools and in higher education. There were increases in 
appropriations in Title VI for area studies and business, especially in 
providing for more Foreign Language and Area Studies (FLAS) 
Fellowships, which are designed to increase the foreign language skills 
of graduate students. Just this year both the House and the Senate 
passed Resolutions for the Year of Foreign Languages, for which we are 
most pleased that Representative Tiberi was a co-sponsor. Only recently 
the Department of Defense announced a Plan to Improve Foreign Language 
Expertise among its military and civilian employees. On another front, 
Senator Christopher Dodd and others have introduced legislation for The 
International and Foreign Language Studies Act of 2005 for the purpose 
``To increase study abroad and foreign language study opportunities for 
undergraduate and graduate students.'' Based on findings that show the 
short fall of undergraduate and graduate students with international 
and foreign language training, the proposed legislation would provide 
considerable more funding for the Title VI Programs in area studies and 
languages, CIBER and National Language Centers.
    It is unfortunate that there was an issue in most recent proposed 
legislation for the Reauthorization of the Higher Education Act that 
became controversial because of concerns of a small minority of 
persons, inside and outside of academia, who did not believe that in a 
few instances that instruction on international matters at all 
universities presented an unbiased view of some world events and U.S. 
foreign policy. The proposed solution was to recommend the appointment 
of an Advisory Committee with oversight over the Title VI Program. It 
is not the purpose of this testimony to enter into this discussion, 
except to say that we must be very careful about establishing a system 
for Title VI that is restrictive of open discussion of all points of 
view.
    The spread of Title VI across the United States is vast. For the 
area studies programs there are currently 121 national resource centers 
and another 23 that offer FLAS Fellowships located in 27 states and the 
District of Columbia. Combined these programs offer more than 1,600 
FLAS Fellowships per year for language training for graduate and 
professional school students. In the case of CIBER the numbers are 30 
universities in 22 states. In addition there are 14 National Foreign 
Language Centers dealing with foreign language pedagogy and learning. 
Each of the above listed centers carries out the mission of the 
legislation and has a significant impact on training not only our own 
students, but also those of our school systems, communities and 
businesses through outreach programs. It is also recognized that these 
programs contribute to important research on international topics by 
means of facilitating faculty and graduate student research and by 
helping build the international collections of our university 
libraries.
    I would like to indicate to you the importance and impact of these 
programs by telling you about Ohio State, which I believe is quite 
typical of these programs at most other universities. I will be 
concentrating on the bigger picture and several of my colleagues will 
follow up with more details about the specifics of area studies, CIBER 
and our K-12 outreach activities.
    Ohio State currently has five area studies centers. The Slavic and 
Eastern European Center was the first one established, and in 1964 
received its first Title VI grant. Since then it has been followed with 
Centers for East Asian Studies, Latin American Studies Middle East 
Studies and African Studies. Each of these centers has or has had Title 
VI support. Currently there are three: Latin America, Middle East and 
Slavic and Eastern Europe. Our CIBER Program in the Fisher College of 
Business has had continuous Title VI support since 1995. In 1997 our 
National East Asian Language Resource Center was established with Title 
VI support, and quickly became recognized as a leader in development of 
pedagogy for these languages. Previously, there was an International 
Studies Center that had a Title VI, but this has transitioned into an 
Undergraduate International Studies Program, which is now one of our 
most popular undergraduate majors. Therefore, we have a total of five 
centers with current Title VI support and eight that have had it at one 
time or another.
    With respect to the importance and impact of Title VI support for 
these programs, I would first like to share some facts that will 
indicate the scope and depth of the program activities. I will limit my 
remarks to some macro figures, since my colleagues will provide more in 
depth detail and analysis. Second, and perhaps even more important, I 
want to emphasize the impact that the Title VI Programs have had on the 
University by ``leveraging'' the commitment of more resources, faculty, 
programs and facilities that enable Ohio State to be much expansive and 
successful in accomplishing both Ohio State's international mission and 
that of Title VI.
    In 2003-2005 our three funded National Resource Centers for area 
studies had 193 affiliated faculty members; sponsored 169 academic and 
cultural events at the University attracting over 6,000 participants; 
contributed to 31 study abroad programs serving 353 students; offered 
630 language and area studies courses with a total enrollment of some 
32,000 graduate and undergraduate students; and awarded 59 FLAS 
Fellowships, many for the study of less-commonly taught languages. 
Outreach for the Ohio Community was very important. The P-12 programs 
served over 4,000 lower, middle and upper school students by means of 
classroom presentations; and the 38 teacher training workshops and 
seminars reached more than 1,000 educators. The community program 
featured 12 events serving 1,261 participants. Seven programs hosting 
nearly 700 persons were held for the business community, seven programs 
were mounted for the state and local government, which were attended by 
242 participants. Professor Fernando Unzueta, director of the Center 
for Latin American Studies, will provide more detail about a typical 
center's activities and educator Donna Nesbitt will testify about the 
importance and impact of the P-12 outreach programs.
    The National East Asian Languages Resource Center is a national 
leader in the development of pedagogy for teaching Chinese, Japanese 
and Korean, which are considered among the languages that require the 
longest time and most resources for Americans to learn. The Center's 
approach is to teach the languages in a cultural context so that 
students can function well in these countries, understand the media, 
and use the languages to effectively delve deep into the understanding 
of the cultures. A key component of the instruction is to spend time in 
these countries through study abroad and internships. The Center 
publishes widely circulated pedagogical books and other materials and 
has an on-line site for exploring study abroad opportunities in East 
Asia. From 1997-2004 it distributed more than 32,000 items to 49 states 
and 140 countries. Its staff published 259 professional articles or 
books. It has an extensive teacher training program, highlighted by an 
intensive summer program. The Center was a catalyst in the development 
of Ohio State's unique and state-of- the-art World Media and Culture 
Center, which just opened this year incorporating the latest technology 
for our teaching of foreign languages. A prominent feature is that 
language students can watch real time television in many foreign 
languages transmitted by satellite from the countries of origin.
    The CIBER Program in the Fisher College of Business is another 
example of international excellence. In 2004 it was ranked by the 
Financial Times as 6th in the United States for international 
experience and exposure within the MBA program. My colleague Professor 
Stephen Hills, Academic Director of International Programs in the 
Fisher College, will provide more information and detail about these 
expansive and exciting activities. Suffice it for me to emphasize that 
this program offers a wide range of programs serving the MBA and 
undergraduate students and the business community.
    As I stated above, it is not only the annual activities that our 
centers carry out with Title VI support to train students in area 
studies, business and foreign languages that are important, but also it 
is the ``leveraging'' role which this support provides that enables the 
University to build considerably even more our capacity to carry out 
this mission. The fact that any one of the above centers was successful 
in obtaining Title VI support immediately gave the program legitimacy 
and a presence that was recognized on campus and opened the doors to 
additional support from within the overall budget or with funds made 
available by other academic units who partnered with the center. It is 
best to illustrate by examples.
    At the level of the individual event or activity, it is rare that 
the sponsoring center uses only Title VI resources. In most cases, it 
partners with other campus or off-campus units and receives support 
from them, thus spreading the resource base and extending the scope of 
persons served by the activity.
    At the macro level the funding from Title VI is regularly used to 
seed the development of new courses that bring additional area studies 
or international content to the curriculum. Once these courses are 
seeded and successful, then in the future the University picks them up. 
It is no small stretch of the imagination to say over time, that Title 
VI has been responsible for progressively adding a large portion of the 
new international content and language courses to the curriculum. When 
the first Title VI funds came to Ohio State there were only six foreign 
languages taught, now we offer 38, including many of the most important 
less-commonly taught languages from the Middle East, Asia and Eastern 
Europe. At that time the international content course offerings were 
sparse, now we have over 840. Certainly some of this would have 
happened without Title VI, but it is clear that funding provided by 
Title VI was a principal catalyst to bring it about. The recent 
awarding of a National Education Security Program (NESP) grant by the 
Department of Defense to the National East Asian Language Resource 
Center is another example. If the foundation established by Title VI 
had not been in place, it is very unlikely that this grant would have 
come to Ohio State. The role of this Center in leveraging the 
development of the World Media and Cultural Center is another case in 
point.
    The same can be said for study abroad. Each of our area studies 
centers, CIBER and the National East Asian Language Resource Center are 
active in promoting and developing new study abroad programs. For 
example, each summer we now offer three to five language-focused study 
abroad programs in China. Other centers offer similar programs. This 
past year the Slavic and East European Center began a new Russian 
language program in Tomsk, Siberia and the Latin American Center 
instituted an intensive Portuguese course in Parana, Brazil. As part of 
our P-12 outreach the centers have developed programs to take teachers 
abroad in the summer. These are not only for language and culture, this 
last year there was a program in Costa Rica for science and math 
teachers and one is planned to study the ecology of the Amazon River 
basin.
    The funding from Title VI spawned the development of our 
Undergraduate International Studies Program, which offers tracks for 
each of the area studies programs as well on several thematic topics. 
It is one of the most popular programs with over 500 majors and takes 
pride in recruiting students whose SAT scores are considerably above 
the average of the freshman class. There is now a proposal that 
students following an area studies track can get a double major by 
adding a second track, for example Homeland Security and Middle East 
Studies, which will provide depth in both a region and a language as 
well as the theme.
    The area studies centers also contribute immensely to the 
International Affairs Scholars Program, which is designed for a select 
number of incoming freshmen across all disciplines but who have a 
passion for international matters. Each of the centers presents 
programming throughout the year for this group. Without the area 
centers, this program would not have been established.
    As the international and language curricula have expanded, it has 
been necessary to add faculty to teach the subject matter. A presence 
of a robust center that fosters an expanded curriculum creates 
incentives for academic departments to hire additional faculty with 
specializations that serve the center's need for instruction but also 
increases the research capacity in international subject matter. More 
than two-thirds of Ohio State faculty members have significant 
professional experience overseas and they bring this knowledge into the 
classroom. It should be noted that the presence of a center, especially 
one with Title VI funding, is very attractive to bring outstanding 
faculty who are being courted. For example, the Title VI status of 
Latin America was essential in recruiting a new faculty member in 
Geography several years ago. Just last week she received the 
outstanding teaching award. The same center can take credit in helping 
recruit a prominent senior faculty member in Latin American History. 
There is no doubt that the centers can take credit for bringing some of 
our best internationally-oriented faculty members to the campus and 
helping to retain them and others.
    The area studies centers play a key role in promoting 
interdisciplinary research, not only within their respective regions, 
but also across regions. Each year the centers collaborate, by bringing 
the expertise of their region, to do scholarly activities on the theme. 
For example, after September 11, there was a series of programs that 
analyzed terrorism around the world. This past two years they have 
examined Americanism and Anti-Americanism in different parts of the 
world. Each center contributes to our major interdisciplinary research 
programs on Climate Change and on Identities in a Changing World.
    The University Library provides another example. Using Title VI 
funds the centers contribute to the building of the collection. To 
support area studies the library has hired bibliographers to help build 
the collection and maintain reading rooms. The Library will undergo a 
major renovation beginning next year. It should be noted that it will 
devote one floor to the international collections and reading rooms, 
which makes a major statement about the commitment of the Library for 
the international collection.
    Finally, I want to stress the importance of our outreach programs, 
especially to the P-12 Community. Ohio State's Academic Plan lists P-12 
outreach as one of our key objectives. The area studies centers, CIBER 
and the National Resource Center for East Asian Languages all have 
outreach to schools and educators in their mission. The University 
takes great pride in using the vast resource base of expertise provided 
by these centers to carry out this component of outreach. Without the 
centers, and the Title VI support therein, it would not be possible to 
be nearly as effective.
    In closing, I hope that I have demonstrated the ever increasing 
need for international education for our nation and its citizenry and 
the role of the universities in the training of specialists with in-
depth skills in languages, area studies and business. The programs 
offered by Title VI have been and continue to be critical to providing 
this training to students in the classroom, through special events and 
activities, and by offering the FLAS fellowships for language training. 
It is important to realize that impact of this support goes much 
further than this group of students. Many other students also take 
advantage of the courses, languages, and programs offered by the 
centers to become better informed and prepared for understanding 
international matters. Moreover, the funds are leveraged to build 
greater international capacity. In the short run we leverage the funds 
with partners on campus and on-campus to carry out these activities. In 
the long run the funds are leveraged to build curricula and facilities 
and to attract faculty to our respective campuses.
    There is much more to be accomplished within and across our 
institutions of higher learning in properly preparing our students for 
understanding and functioning well in our rapidly changing and 
globalized world. Title VI has come a long way, but it is clear that 
more resources could be most effectively used to help meet our nation's 
needs for strengthening our national security and in preparing our 
citizenry. I encourage the Congress to strongly consider the possible 
means to bring this to reality.
                                 ______
                                 
    Chairman Tiberi. Thank you for your testimony.

 STATEMENT OF DR. FERNANDO UNZUETA, DIRECTOR, CENTER FOR LATIN 
   AMERICAN STUDIES, THE OHIO STATE UNIVERSITY, COLUMBUS, OH

    Dr. Unzueta. Thank you, Mr. Chairman Tiberi, Ranking Member 
Hinojosa. It is a pleasure to testify before you. The mission 
of our Center for Latin American Studies (CLAS) is to promote 
the teaching, research, and intellectual interests of faculty 
and students in all matters dealing with Latin America 
including its languages and cultures.
    In addition, we carry out meaningful outreach programs to 
enhance the public's knowledge and understanding of the 
region's politics, business, economics, culture, languages, 
literatures, and arts.
    Title VI funding has been crucial to help CLAS accomplish 
its lofty mission in the four basic areas of curriculum, 
programming, support services, and outreach.
    In recent years, curricular contributions include new 
courses such as Business Culture in Latin America, 
Globalization in the region, and Brazilian Politics, to give a 
few examples. To support language studies, we are developing a 
new computer-based program in Portuguese individualized 
instruction. Enrollments have jumped by 50 percent in the first 
quarter this program has been implemented.
    In all cases we use grant funds to seed courses which are 
later fully supported and regularly taught by the departments. 
About 20 percent of our grant funds in all go to enhance the 
Latin American Studies curriculum.
    Thanks to the FLAS fellowships, besides advanced Spanish 
and Portuguese, several students learn Amerindian languages. 
These fellowships account for about 50 percent of a typical 
Centers' funding (about 30 percent in the case of our Center).
    In an era with shortages of language specialists, the 
contributions of universities with National Area Studies and 
Foreign Language Resource Centers to meeting national needs can 
not be underestimated.
    Nationwide we provide 80 percent of all instruction in the 
less commonly taught languages. Many of these languages would 
simply not be available to U.S. students without Title VI 
funding. Ohio State alone offers close to 40 languages and all 
of those considered critical by several Government reports 
including Arabic, Korean, Chinese, Persian, Russian, and 
Portuguese to name a few.
    But our contributions go way beyond the teaching of 
languages. Our colleagues write textbooks, prepare teaching 
resources, and conduct research on language acquisition that 
are used for different teachers around the country. Plus 
enriches students' educational experience and provides them and 
the faculty with additional scholarly opportunities by 
programming lectures, conferences, and other activities.
    These events are free and open to the public and they are 
usually the result of collaborations with multiple units across 
campus. In other words, grant funds are used to leverage 
resources from Departments and the university at large. About 
10 percent of the grant funds this type of programming.
    CLAS also supports the development of new study abroad 
opportunities, fosters research in language and area studies, 
and contributes to the library to improve its Latin American 
holdings. About 300 OSU students and teachers go to Latin 
America every year choosing from a range of different programs. 
Approximately 20 percent of grant funds enhance the library 
collection and research and study abroad opportunities.
    The centers are fully engaged in outreach activities for 
all of our constituencies. For preschool and elementary 
children and their care givers, CLAS sponsors a Spanish story 
times program in five public library systems in Central Ohio 
and provides a traveling museum exhibit about the art and times 
of Diego Rivera which is shipped to schools around the state 
and as far as Alaska.
    For the community at large we offer a book club, and film 
series and other cultural events about Latin America. Much of 
our outreach is directed to K-12 teachers who, in turn, will 
take their experiences back to their students.
    In the Global Hotspots program, CLAS collaborates with the 
other Area Study Centers to run workshops for teachers that 
provide background information and expert analysis about 
countries presently in the news.
    We have also been offering a Summer Seminar Abroad for 
Spanish Teachers for the last 14 years. Last year this very 
successful program was adapted to other disciplines and the 
Mesoamerica for Teaching Math and Science program was launched 
in collaboration with the College of Education. These are but a 
sample of our outreach activities.
    We aim both for breadth to reach a large number of 
participants, and for depth, to allow smaller groups, teachers 
in particular, to have a more thorough contact with a specific 
aspect of Latin America or its languages and to help them 
produce high-quality materials that they can use in their 
classrooms. About 20 percent of grant funds are invested in 
outreach activities.
    In sum, I am convinced that the programs under Title VI of 
the Higher Education Act are running well and that it is doing 
great things through the Centers at Ohio State and around the 
nation. We are meeting our mandated goals of enhancing the 
quality of post-secondary education as well as the teacher 
training priority of the program.
    In particular, we are training language and area studies 
specialists and our graduates are servicing the strategic needs 
of the U.S. in private organizations, nonprofits, and public 
agencies. Since many of our graduates go on to teach in 
schools, colleges, and universities across the country, we are 
also producing the next generation of teachers who will 
continue expanding the field.
    We are here for the long term. Training international and 
language specialists takes years. I know this is our shared 
goal and I hope you continue to let us help you achieve this 
goal. Thus, I urge you to reauthorize and to enhance this 
program. Thank you for giving me the opportunity to testify.
    [The prepared statement of Dr. Unzueta follows:]

Statement of Dr. Fernando Unzueta, Director, Center for Latin American 
            Studies, The Ohio State University, Columbus, OH

    Thank you, Mr. Chairman and Ranking Member, for the opportunity to 
testify. My name is Fernando Unzueta, and I am the Director of the 
Center for Latin American Studies (CLAS), a National Resource Center 
with Foreign Language and Area Studies Fellowships at Ohio State. I am 
also Chair of the Department of Spanish and Portuguese.
    The mission of our Center is to serve, facilitate, and stimulate 
the teaching, research, and intellectual interests of faculty and 
students in all matters dealing with Latin America. In addition, we 
carry out meaningful outreach programs to enhance the public's 
knowledge and understanding of the region's politics, business, 
economics, culture, languages, literatures, and arts.
    Over two dozen OSU Departments and other units teach and/or conduct 
research on Latin America and Spanish and Portuguese languages. Title 
VI funding has been crucial to help CLAS accomplish its lofty mission 
in the four basic areas of curriculum, programming, support services, 
and outreach.
    CLAS supports the development of Latin American-content courses. In 
recent years, CLAS'' curricular contributions include new courses such 
as Business Culture, Globalization in the region, and Brazilian 
Politics. To support language studies, we are co-sponsoring the 
development of a new computer-based program in Portuguese 
individualized instruction. This was launched in Spring of 2005 and 
enrollments in that language have jumped by 50%. In all cases, we use 
grant funds to seed courses which are later fully supported and 
regularly taught by the Departments. We use about 20% of our grant 
funds to enhance the Latin American Studies curriculum.
    Thanks to the FLAS fellowships, besides advanced Spanish and 
Portuguese, several students learn Amerindian languages in summer 
programs with other Centers from around the country. These fellowships 
account for about 50% of a typical Centers' funding (about 30% in our 
Center). In an era of growing global competitiveness and with 
increasing shortages of language specialists, the contributions of 
Universities with National Area Studies and Foreign Language Resource 
Centers to meeting national needs can not be underestimated. It is safe 
to say that many of the less commonly taught languages would whither or 
simply not be offered to U.S. students without Title VI funding. Ohio 
State offers over 30 languages and all six ``critical'' languages 
according to the 2002 GAO report of the United States Army (Arabic, 
Korean, Mandarin Chinese, Persian, and Russian) as well as other 
languages considered critical in different recent reports (such as 
Portuguese, Urdu, and Pashto).
    But our contributions go way beyond the teaching of languages. Our 
colleagues write textbooks, prepare teaching resources, and conduct 
research on language acquisition. Here in Columbus, we don't only put 
our Spanish majors in contact with heritage speakers to develop their 
skills, but a colleague is publishing on how best to use heritage 
speakers as language resources. Similarly, at the same time Portuguese 
individualized instruction is being developed, colleagues and a 
graduate student working in computational linguistics are assessing how 
students can best learn the language using technology.
    CLAS enriches students' educational experiences and provides them 
and the faculty with additional scholarly opportunities by programming 
lectures, conferences, and other activities on Latin American topics. 
These events are free and open to the public, and they are usually the 
result of collaborations with multiple units across campus. In other 
words, grant funds are used to leverage resources from Departments and 
the University at large. In the past two years, all of the Area Studies 
Centers have collaborated with the Mershon Center to organize 
conferences on Violence and Conflict, and on Cultural Americanization 
and Anti-Americanism. This year we held our Fourth Annual Ohio 
Latinamericanist Conference, with 70 presenters (and 130 participants), 
primarily from across the state. We feel it is incumbent on the only 
Latin American National Resource Center in the state to provide a forum 
to foster collaborations and the exchange of ideas among scholars from 
the area. CLAS uses about 10% of its grant funds to support these types 
of programming.
    CLAS supports several other Latin America-related activities as 
well, including the development of new study abroad opportunities, 
fostering research in language and area studies, and contributing to 
the Library. CLAS provides close to 10% of its grant monies to the 
Library alone to improve its Latin American holdings. These resources, 
in turn, are available to over 80 colleges and universities throughout 
the state through the Ohio Link service, which ships books among 
academic libraries within 72 hours. It is also worth mentioning that 
about 300 OSU students and teachers go to Latin America every year 
choosing from 40 different programs. These include language programs in 
Cuernavaca or Quito, a NAFTA program outside Mexico City, others in 
development and nutrition in the Dominican Republic, a service learning 
experience in Nicaragua, teaching opportunities in Chile, and medical 
rotations in several countries. Approximately 20% of grant funds 
support contributions to the Library, research opportunities, and study 
abroad activities.
    Like all area study centers, CLAS is fully engaged in outreach 
activities for all of our constituencies. For preschool and elementary 
children and their caregivers, CLAS cosponsors a Spanish story times 
program in five public library systems in Central Ohio, aiming to 
promote the language and literacy at an early age. This program has 
received corporate funding and a grant from the State Library of Ohio, 
which also selected it as one of five ``exemplary programs'' in the 
state. It reached over 3,000 participants last year, and Title VI 
funding accounts for less that 15% of this program's expenses, which 
has grown to $40,000 per year. Another successful initiative for 
schools, reaching about 4,000 participants, is our Traveling Museum: an 
exhibit about the art and times of Diego Rivera which is shipped to 
schools around the state and as far as Alaska. CLAS also sends 
international students to speak at schools and community events, either 
as a function of its Speakers Bureau or in collaboration with the 
Office of International Affairs' similar Global School Bus program. For 
the community at large, we offer a Book Club of Latin American 
literature in translation as well as a film series and other arts 
events.
    Much of our outreach is directed to K-12 teachers who, in turn, 
will take their experiences back to their students. In the Global 
Hotspots program, CLAS collaborates with the other ASCs to provide 
background information about any of the regions' crises that is in the 
news. This past year 45 teachers participated in the 5 session workshop 
to receive support producing lesson plans for their courses. We have 
also been offering a Summer Seminar Abroad for Spanish Teachers for the 
last 14 years, where teachers can take graduate courses in a Latin 
American country. This past summer, this program was adapted to other 
disciplines and the Mesoamerica for Teaching Math and Science program 
was launched in collaboration with the College of Education. 
Participants took two graduate courses in Mexico and studied the 
advancements of pre-Columbian civilizations and developed teaching 
materials as a result of their experiences. These are but a sample of 
our outreach activities. We aim both for breadth to reach a large 
number of participants, and for depth, to allow smaller groups, 
teachers in particular, to have a more thorough contact with a specific 
aspect of Latin America or its languages and to help them out produce 
high-quality materials that they can use in their classrooms. About 20% 
of grant funds are invested in outreach activities.
    I have also been asked to include recommendations as you consider 
the reauthorization of Title VI of the Higher Education Act. I do so 
with some hesitation, since I know this is a politically charged topic.
    First of all, I am convinced the program is running well and that 
it is doing great things through the Centers at Ohio State and around 
the nation. We are meeting our mandated goals of enhancing the quality 
of and access to postsecondary education as well as the teacher 
training priority of the program. In particular, we are training 
language and area studies specialists. And since many of our graduates 
go on to teach in schools, colleges, and universities across the 
country, we are also producing the next generation of teachers who will 
continue expanding the field. We're here for the long-term. And that's 
the way it has to be: training international and language specialists 
takes years. I know this is our shared goal, and I hope you continue to 
let us help you achieve this goal.
    Since you are considering changes to the program, and an 
international advisory board in particular, I will stick out my neck to 
suggest that this board, with broad investigative powers, may not the 
best solution. It is expensive, its origins and composition invite 
politization, it hints at federalizing education, and it is ultimately 
unnecessary. We welcome accountability, and the programs and Centers we 
run are extensively and regularly evaluated. The personnel of the US 
Department of Education provide appropriate oversight and receive our 
detailed reports. At Ohio State, each Center has its own advisory board 
or committee and prepares annual reports for the Office of 
International Affairs. The OSU Research Foundation, which handles our 
budget, makes sure all of our grant expenditures meet the award's 
guidelines and requirements as well as the University's. As it is 
common in all academic institutions, at Ohio State every course is 
evaluated by students; several are assessed by peers, and you don't 
really want to know how many internal and external evaluators examine 
everything you have written and your students' comments of your classes 
when you come up for promotion.
    If you want to implement changes in the program, I would suggest 
the best and most reasonable way to go about it might be by changing 
the priorities (both absolute and invitational) and guidelines of the 
grant competition. The grant proposals are what shape our programming, 
activities, and our expenditures. Those proposals, as you probably 
know, are evaluated by a team of area and language specialists, under 
US Department of Education supervision. If we receive the award, our 
revised budgets have to be approved by the able staff of the US DE 
before the beginning of the funding cycle. In addition, before each 
annual renewal, we have to submit, as mentioned, reports detailing our 
activities and justifying any departures from the original proposal, as 
well as another revised budget for the following year.
    In closing, I would like to state that I deeply appreciate the 
Congressional leadership in support of these programs and respectfully 
urge you to continue this valuable and widely-supported investment in 
the nation's future. Thank you for giving me the opportunity to 
testify.
                                 ______
                                 
    Chairman Tiberi. Thank you, sir.

STATEMENT OF DR. STEPHEN M. HILLS, ACADEMIC DIRECTOR, OFFICE OF 
 INTERNATIONAL PROGRAMS, FISHER COLLEGE OF BUSINESS, THE OHIO 
                 STATE UNIVERSITY, COLUMBUS, OH

    Dr. Hills. Thank you, Mr. Chairman and Mr. Hinojosa. I am 
pleased to provide this testimony about the OSU CIBER funded by 
the U.S. Department of Education funded by the U.S. Department 
of Education through Title VI. The OSU CIBER currently receives 
about $370,000 in funding per year and is in its 10th year of 
continuous support.
    Since 1995 9,600 students, faculty, or business 
professionals benefited directly from the OSU CIBER. Those 
benefiting indirectly (i.e., students in classes taught by 
faculty who have received curriculum development support or 
joint partnerships with other CIBERs) are difficult to count 
but no doubt number in the many thousands.
    Seven totally new and ongoing courses have been developed 
from the initiative of the CIBER and many more have been 
globally enhanced. More than 100 faculty members from OSU and 
other Ohio institutions have received teaching and/or research 
grants.
    The OSU CIBER is known nationally for its focus on 
assisting foreign language faculty from across the country in 
understanding more about the language of business. An annual 
summer development workshop hosted at the OSU CIBER has trained 
more than 150 foreign language professionals.
    The OSU CIBER has also introduced a series of language 
tutorials for MBA students in 1997. These tutorials have been 
taught in nine languages. The objective of this program is not 
to impart language proficiency but rather to reduce the 
hesitations that students often have when they begin to acquire 
language skills.
    For more advanced proficiency, these students are 
encouraged to continue their study through Title VI funded 
Foreign Languages and Area Studies (FLAS) fellowships. OSU also 
offers individualized instruction, as Fernando and Dr. Ladman 
have mentioned, in several languages, including those less 
commonly taught. Development of the Japanese individualized 
instruction program was funded directly by the CIBER.
    Projects co-sponsored with other CIBERs, other Title VI 
centers at OSU, other Ohio higher educational institutions or 
businesses increased and leverage the impact of the OSU CIBER. 
Since the CIBER initiated its activities in 1995, collaboration 
with government agencies, including the U.S. Department of 
Commerce and The Ohio Department of Development's International 
Trade Division, have increased significantly.
    As evidence, the OSU CIBER received the Ohio Governor's E 
Award for Excellence in Exporting award in 2002. There are 
currently 30 National CIBER centers in the United States. Each 
of the CIBER centers has as its goal to increase international 
competitiveness of American business.
    CIBER programs at The Ohio State University have been built 
around the broad theme stated in each proposal. In its first 3 
years, CIBER activities emphasized the emerging markets of the 
world and their critical importance to the U.S. During its 
second 4-year grant, the CIBER promoted a wide set of 
activities designed to benefit and learn more about the 
globalization of Small and Medium-Sized Enterprises (SMEs). The 
current grant for 2002 to 2006 is focused on managing global 
strategic alliances.
    Prior to the mid 1990's, no one person in Fisher College 
was solely responsible for the college's international program 
development. CIBER has facilitated the appointment of a faculty 
director and a full time professional staff director.
    The Office of International Programs at Fisher College is 
now supported by four other part or full-time staff members and 
several student assistants. Such growth in support of global 
programming is directly attributable to the CIBER.
    The OSU CIBER has supported significant research projects 
within the Fisher College, at OSU, and across the region. 
Fisher College's faculty are now ranked #1 in the U.S. for 
management research on China and are also highly regarded in 
terms of managerial research on Eastern Europe.
    This represents a very significant change from the mid 
1990's. Fourteen of the Fischer College faculty now have 
predominant global research interests. The presence of the 
CIBER at OSU has helped attract internationally oriented 
researchers to the college.
    Title VI funds have been used effectively through their 
support of the OSU CIBER. Its impact on the university, the 
state, and throughout the region has been significant and 
cannot be underestimated. We strongly encourage the U. S. 
Committee on Education and the Workforce to continue its 
support of Title VI programming, and in particular that which 
funds the national Centers for International Business Education 
and Research, the CIBER.
    We strongly endorse the Title VI reauthorization 
recommendation sent to your Committee by the Coalition for 
International Education, a group of 35 national higher 
education associations.
    I might add that I have been at Ohio State for 30 years now 
and I have seen all this happen. I also have been the co-
principal investigator for the CIBER since its initiation so I 
am very proud of the progress we've made and we have done that 
very much in collaboration with you. Thank you.
    [The prepared statement of Dr. Hills follows:]

    Statement of Dr. Stephen M. Hills, Academic Director, Office of 
  International Programs, Fisher College of Business, The Ohio State 
                        University, Columbus, OH

    Mr. Chairman and Members of the Subcommittee:
    My name is Stephen M. Hills. I am Academic Director for 
International Programs at the Fisher College of Business and Co-
Principal Investigator for the OSU CIBER.
    Thank you for your presence here today at The Ohio State 
University. We are pleased to provide this testimony about the Center 
for International Business Education & Research (OSU CIBER), funded by 
the U.S. Department of Education through Title VI. The OSU CIBER 
currently receives $370,850 in funding (September 2004 to October 2005) 
and is in its 10th year of continuous support.

IMPACT
    The OSU CIBER, funded since 1995, has had a critical impact on the 
internationalization of The Fisher College of Business. Its impact, in 
addition, has been felt across the OSU campus, among the many 
institutions of higher education in Ohio, and through the business 
community in Ohio. Also, through its partnership and affiliation with 
other national CIBER centers, its programmatic efforts have had 
national impact.
    Since 1995, individuals (students, faculty, or business 
professionals), directly participating or benefiting from the OSU CIBER 
number more than 9,600 (see Appendix 1). Those benefiting indirectly 
(i.e., students in classes taught by faculty who have received 
curriculum development support or joint partnerships with other CIBER) 
are difficult to count but no doubt number in the many thousands. 
Totally new (ongoing) courses developed from the initiative of the 
CIBER are seven, and many more have been globally enhanced. More than 
100 faculty members from OSU and other Ohio institutions have received 
teaching and/or research grants.
    One of the things for which the OSU CIBER is particularly known 
(among national CIBERs) is its focus on assisting foreign language 
faculty from across the country in understanding more about ``the 
language of business''. An annual summer development workshop hosted at 
the OSU CIBER has trained more than 150 foreign language professionals. 
Understanding that business students need more training in foreign 
language, the OSU CIBER introduced a series of language tutorials for 
MBA students in 1997. These tutorials have been taught in nine 
languages. The objective of this program is not to impart language 
proficiency but rather to reduce the hesitation and challenges these 
students often have to begin to acquire language skills. For more 
advanced proficiency, these students are encouraged to continue their 
study through Title VI funded Foreign Languages and Area Studies (FLAS) 
fellowships. OSU also offers individualized instruction in several 
languages, including those less commonly taught, and the Japanese 
program's development was funded directly by the CIBER. Projects co-
sponsored with other CIBERs, other Title VI centers at OSU, other Ohio 
higher educational institutions or businesses within Central Ohio 
greatly increase and leverage the impact and reach of the OSU CIBER. 
Since the CIBER initiated its activities in 1995, collaboration with 
government agencies including the U.S. Department of Commerce and the 
Ohio Department of Development's International Trade Division, have 
increased significantly, thereby increasing the efficacy of the CIBER 
and increasing the economic benefit to students and the business 
community. As evidence, the OSU CIBER received the Ohio Governor's 
``E'' Award for Excellence in Exporting award in 2002.

BACKGROUND
    The Center for International Business Education & Research (CIBER) 
at OSU's Fisher College of Business was established in late 1995. Its 
home is The Ohio State University, a university with a long and rich 
history in areas of international learning and understanding. Following 
rounds of competitive evaluation, it was refunded in 1998 and in 2002. 
The OSU CIBER will compete for this national center of excellence 
designation again in 2006.
    There are currently 30 national CIBER centers in the United States, 
each committed to enlarging the sphere of teaching, research, and 
outreach undertaken on their campuses and in their communities in the 
area of international business development. Each of the CIBER centers 
has at its core the goal of increasing international competitiveness, 
business language acumen, global trade expertise, and area studies 
competency. Programs are directed to undergraduate, graduate and Ph.D. 
students within colleges of business as well as elsewhere on campus; to 
faculty from throughout the university, and to executives and 
professionals within business communities.
    CIBER programs at The Ohio State University have been part of an 
envelope of activities encompassing a broad theme stated in each 
proposal. In its first three years, CIBER activities were connected to 
an overarching theme of ``Emerging Markets'', and the OSU CIBER was one 
of the first to propose a broad set of programs targeted to gaining 
knowledge and expertise about these dynamic and expanding economies of 
the world. During its second four-year grant, the CIBER promoted a wide 
set of activities designed to benefit and learn more about the 
globalization of Small and Medium-Sized Enterprises (SMEs). With a 
majority of Ohio's businesses classified as SMEs, understanding more 
about how these organizations become active within the global trade 
community was meaningful and important. The proposal written for 2002-
2006, while continuing to promote learning in each of the first two 
areas renewed its commitment to international activity under the theme 
of ``global strategic alliances''. This was and is an area that was 
broad enough to bring all facets of the business school and university 
area studies expertise together, and one that would leverage some of 
the distinct competencies of the Fisher College of Business.

KEY PROGRAMS
    Several ``hallmark'' programs have been developed in the area of 
curriculum, research, and outreach at the OSU CIBER, including some 
collaboration with other CIBERs around the country. A few of these 
include:

Outreach and Collaboration
    Summer Development Program for Foreign Language Faculty. The OSU 
CIBER has been host for the past six years for a program called, 
``Inside the MBA Classroom: Business Concepts and Pedagogy for Foreign 
Language Faculty and Professionals''. This program seeks to assist 
foreign language professionals in gaining further understanding of the 
ways in which professional and business students are used to learning, 
so that they can be more effective in the classroom with these 
students. Many foreign language faculty have never taken business or 
professional classes themselves; they understand that the ``language of 
business'' is different. This program seeks to bridge the gap between 
foreign language and business classrooms. This program is co-sponsored 
with six other national CIBER centers.
    University of Illinois National Security Conference. The OSU CIBER 
was a key co-sponsor of the IU CIBER National Security Conference in 
2003. The two-day conference included panels and speakers addressing 
both applied and academic topics. Attendees numbered more than one 
hundred. The OSU CIBER continues to develop its own agenda in the area 
of national security as well as partners with other national CIBERs in 
national security initiatives.
    National Trade Policy Forum. The OSU CIBER is one of several that 
sponsor the CIBER National Trade Policy Forum. First held at UNC-Chapel 
Hill in 2003, the National Trade Policy Forum brings together state 
government officials to discuss new international trade patterns and 
how to implement adjustments in local markets to maintain and increase 
national competitiveness. The National Trade Policy Forum is scheduled 
to be hosted in Columbus by the OSU CIBER in 2008.
    National CIBER Language Conference. This national conference has 
been hosted and financially supported by nearly every CIBER for the 
past several years. Bringing together foreign language faculty from 
across the country, the conference seeks to develop new ways to make 
language, especially less commonly taught languages, accessible to 
business and professional students across the country. The conference 
is attended by faculty from throughout the U.S. Many faculty from 
institutions that do not have CIBERs are sponsored by CIBERs within 
their regions to attend. The National CIBER Language Conference is 
slated for Columbus at the OSU CIBER in 2007.
    TARGET. Begun in 1998, TARGET is a business networking group for 
executives representing small and medium sized companies wanting to 
grow their international revenues. TARGET groups meet every two months 
to discuss challenges in the global marketplace and to hear from 
experts about ways to make the most of international opportunities. In 
2003 the OSU CIBER partnered with Wright State University to launch a 
TARGET group in Dayton and with OSU's Mansfield campus to launch a 
group there. This year, TARGET will begin in Cleveland, in partnership 
with Cleveland State University. TARGET, which stands for ``To Aim and 
Realize Global Expansion Together'' has involved more than 75 Ohio 
companies as participants or as guest speakers.
    Mid-Ohio Faculty International Network (MOFIN). MOFIN is a group of 
nine Ohio colleges and universities formed by the OSU CIBER to provide 
impetus for increased global program development. The MOFIN group 
creates a vehicle for the OSU CIBER to push its resources out to 
college students throughout the state of Ohio. The CIBER awards MOFIN 
institutions small grants at least once during the CIBER funding cycle 
to create new curriculum or outreach projects on their campuses. 
Current MOFIN members, who meet once each year as a group at OSU to 
discuss their programs and progress, include Ohio Northern University, 
Hocking College, Cleveland State University, Columbus State Community 
College, Wright State University, Ashland University, Ohio Dominican 
University, and Otterbein College.

Curriculum
    The MBA Emerging Markets Field Study (EMFS) course. This course 
began in 1995, and proposed to teach students about the historic, 
political, business, and economic environment of one of the world's Big 
Emerging Markets. As students were learning, they would also be charged 
with the responsibility of communicating with a business operating in 
that market for purposes of establishing a site visit for the class. 
Following the winter quarter offering, students would travel to that 
market over spring break, spending one day in each of the site visit 
companies, talking with managers and executives about the opportunities 
and challenges of doing business in that market, with particular 
emphasis on its global trade and competitiveness positions. To date, 
nearly 400 Fisher College MBA students have participated in EMFS 
courses, traveling to more than 20 countries around the world including 
China (three times), Thailand, Malaysia, Singapore, South Africa 
(twice), Namibia, Argentina (twice), Brazil, Mexico, Peru, Chile 
(twice), Panama, Costa Rica, Poland, Hungary (twice), Czech Republic, 
Greece, Cyprus, Egypt, and Turkey. Many of the companies visited on the 
EMFS trips are ones that commonly recruit Fisher College students for 
permanent positions (i.e., Ford, P&G, Coca-Cola) while others have been 
much smaller, local businesses striving to become part of the global 
economy.
    The EMFS course expanded from one to two sections in 1998 in order 
to better meet student demand, and a section for undergraduate students 
was added in 1999.
    The Export/Import Management course, for undergraduate honors 
students, was begun in 2000. The course ``matches'' a class of Fisher 
College students at OSU with a similar class of students at an 
international partner school. The class is team-taught between Fisher 
College faculty member and one at the partner school. Local companies 
are recruited to participate as case studies. The students at OSU then 
work on behalf of the local companies to learn about the intricacies of 
exporting and to act as ``export agents'' for the local companies, all 
of whom have expressed interest in learning more about the market of 
study. Students at the partner school act as ``import agents'' helping 
the companies find local distributors, suppliers, or customers for 
their products and learning first-hand about the challenges associated 
with doing international business. Students meet and learn to work with 
one another through regular video conferences. The Export/Import 
Management class has been taught using partner classes in both South 
Africa and Mexico.
    The Distinguished International Speaker Series offers a wide 
variety of options for MBA students to hear from individuals whose 
primary vocation is global business, or who represents a foreign 
company or government. The informal, lunchtime CIBER-sponsored series 
has brought more than 60 presentations to Fisher College. Presentations 
and speakers are often co-sponsored with one or more of OSU's area 
studies centers, in order to leverage costs and widen the scope 
students who are able to participate.
    Fisher College Faculty Seminar in South Africa. In June 2005 a 
group of 10 Fisher faculty, including the CIBER faculty director and 
Dean Joseph Alutto, will travel to Cape Town and Johannesburg, South 
Africa. The purpose of the trip is to continue to provide international 
exposure for faculty from several different departments to areas of the 
world with which they are less familiar. The University of Cape Town 
and its business school faculty will be prominent partners in this 
agenda, and discussions will center on ways to deepen and extend 
collaboration between the two institutions.
    MBA Foreign Language Tutorials. Recognizing that an exposure to 
foreign language and culture is critical for future business leaders, 
the CIBER introduced foreign language tutorials for MBA students in 
1997. Offered to groups as small as four students and utilizing 
instructors from OSU's many and diverse foreign language departments, 
the tutorials are offered every quarter. The one-quarter, non-credit 
tutorials offer students an opportunity to gain initial exposure to a 
new language and culture, and also to highlight the rich capabilities 
at OSU in language and area studies. Foreign language tutorials have 
been offered in Spanish, French, German, Italian, Russian, Chinese, 
Japanese, Polish, and (new this year) Hindi.

Research
    The Global Competence Awards, established for Fisher College of 
Business faculty, are offered by the CIBER on an annual basis. Faculty 
and Ph.D. students in business are invited to submit proposals for new 
research in the area of international trade and competitiveness; 
research that could lead to publication within peer-reviewed journals. 
Since the inception of the GCA awards, more than 30 research awards 
have been distributed leading to 15 publications and many more academic 
presentations. Projects have included the support of design and trial 
of a global logistics simulation, and the support of a new textbook 
written by Professor Oded Shenkar, ``The Chinese Century.''
    Faculty Research Conferences. A Global Strategy Conference and a 
Conference on Organizational Learning, among others, have been 
sponsored by CIBER. In the Global Strategy Conference, twenty of the 
world's leading researchers in the area of global strategy were invited 
to OSU for a two-day academic seminar. New research was debuted and 
discussed, and an official proceedings was distributed. Several of the 
papers presented at the Global Strategy Conference (2002) have been 
published in top-tier journals in that field. Similarly, the 
Organizational Learning conference brought more than a dozen faculty 
from multi-disciplinary areas together to discuss organizational 
learning in an international context. Papers were selected, presented, 
and published in a proceedings and the conference provided faculty from 
across the area to meet and discuss this shared research interest.
    Academy of International Business Global Frontiers Conference. The 
OSU CIBER is an active participant and sponsor of the AIB Global 
Frontiers Conference, which is held every year and develops new 
directions for research in international business. Faculty from Fisher 
College, including Professor Mona Makhija and Professor Mike Peng, have 
been among the key presenters at these research conferences.
    Cross-Cultural Language and Negotiation Simulations have been 
sponsored by the OSU CIBER, allowing faculty and students at all levels 
to learn more about international business and negotiating in different 
cultural settings. Simulations are written so that participants can 
learn through role play. The OSU CIBER has funded a Chinese simulation, 
while other national CIBER have funded others in different languages 
and/or cultural settings.

New Programs in 2004-2005
    Several new initiatives are taking place in the 2004-2005 academic 
year. These include:
    Learning the ABC's: Argentina, Brazil, and Chile. This day-long 
seminar in September 2004 brought 75 business executives and experts 
together to discuss the dynamic business markets in Argentina, Brazil, 
and Chile. The program was held at Fisher College in collaboration with 
the Ohio Department of Development's InternationalTrade Division and 
the U.S. Department of Commerce Export Assistance Center in Columbus. 
Department of Commerce officials in each of these three countries 
``ATTENDED'' the seminar via live video conference and participated in 
panel and other discussions with executives interested in learning more 
about the export opportunities in these countries.
    The First Annual CIBER Case Challenge. Twelve teams of 
undergraduate students from throughout the U.S. and the world came to 
Fisher College to compete in this first annual event. Executives and 
alumni from OSU served as judges WHILE teams of students analyzed and 
presented TO THEM a new business research case. The event offered an 
opportunity for business students to apply classroom learning in a very 
real sense and to receive feedback from corporate executives about the 
accuracy of their perceptions and conclusions. The event, taking place 
in November 2004, was won by the team from Brigham Young University. 
The next CIBER Case Challenge will take place in October 2005.
    You Can Go Global! A Program for OSU Minority Students. On April 
22, 2005 a morning panel discussion and luncheon keynote will offer 
minority students from across campus the opportunity to learn more 
about the advantages of having an international experience while a 
student at OSU. A morning panel of executives will offer students a 
snapshot of the advantages of having a second language, undertaking 
study abroad, participating in a short term global study project, or 
doing an international internship. The panel will be followed by a 
keynote luncheon speaker, Ms. Donna Alvarado, former U.S. Deputy 
Assistant Secretary of Defense and current member of the Ohio Board of 
Regents. The program is sponsored by the CIBER, the Office of Minority 
Affairs, the Office of International Education, the Center for Latin 
American Studies, the Center for Middle Eastern Studies, the Center for 
Slavic and East European Studies, and the Fisher College Minority 
Student Services office. A small grant for the program was provided by 
NAFSA.

Additional CIBER Impact
    Study Abroad. In the first few years following OSU's CIBER 
designation, an effort was undertaken to provide MBA and Undergraduate 
Fisher College students with high quality options to study abroad 
around the world. As of 1999, no MBA students from the Fisher College 
engaged in study abroad activity and the college had no ongoing global 
partners with international ranking. Now, 18 MBA partners and 13 
undergraduate partners, all considered among the best business schools 
in the world, are actively engaged with Fisher College. Between 10 and 
20 percent of all full time MBA students now complete a study abroad 
within their two year programs, and nearly 75 MBA students have lived 
and studied abroad since 2000.
    Prior to the mid 1990s, no one person in Fisher College was solely 
responsible for the college's international program development. CIBER 
has facilitated the appointment of a faculty director and a full time 
professional staff director. The Office of International Programs at 
Fisher College is now supported by four other part or full time staff 
members and several student assistants. Such growth in demand and 
supply of global programming is directly attributable to the CIBER. Its 
long term impact on the college and across the OSU campus should not be 
underestimated.
    As mentioned above, CIBER has supported significant research 
projects within the Fisher College, at OSU, and across the region. 
Supporting faculty as the work and travel abroad in global business 
arenas is an important function of the center. Fisher College's faculty 
are now ranked 1 in the US for management research on China and are 
also highly regarded in terms of research on Eastern Europe. This 
represents a very significant change from the mid 1990s. We now count 
among the Fisher College faculty 14 members as having predominant or 
strong global research interests. The presence of the CIBER at OSU has 
helped attract internationally oriented researchers to the college.
    Student demand for new programming in international areas continues 
to exceed supply and pushes the OSU CIBER to new heights. Working 
together with other OSU Title VI centers; nationally with other CIBERs; 
and within the US with other higher educational institutions, the OSU 
CIBER looks forward to creating and implementing significant projects 
to assist US business in maintaining competitiveness across the world.
In Conclusion
    Title VI funds have been used effectively through their support of 
the OSU CIBER. Its impact on the university, the state, and throughout 
the region has been significant and cannot be underestimated.
    We strongly encourage the U. S. Committee on Education and the 
Workforce to continue its support of Title VI programming, and in 
particular that which funds the national Centers for International 
Business Education & Research.

                               Appendix 1
      Statistics Used to Calculate Direct Impact of the OSU CIBER:
                (Does not include co-sponsored programs)

Students:
    MBA Foreign Language Tutorials, 135
    EMFS MBA Students since 1995, 400
    EMFS UG Students since 1998, 144
    DISS Students since 1996, 2,880
    Export/Import Management Class, since 2000, 150
    Study Abroad MBA students since 2000, 90
    CIBER Case Challenge 2004, 80
Faculty:
    Global Competence Awards, 80
    Foreign Language Faculty Development Program, 150
    Faculty Research Seminars, 100
    MOFIN Seminars, 15 faculty grantees
Business Community:
    Ohio Global Trade Conference 1998, 150
    Asian Financial Crisis Conference, 1997, 75
    Argentina, Brazil, Chile 2004, 75
    Second Generation China 2003, 75
    Africa Trade Conference 2002, 50
    Latin American Studies Center/CIBER Conference, 30
    Ohio Governor's Trade Mission Briefing, 50
    East Asian China Conference, 50
    Ohio Governors Trade Mission Briefing, 50
    TARGET Columbus, Dayton, Mansfield, 200 business professionals
    Fisher Council on Global Trade and Technology (Bush, Sr.; 
Gorbachev; Ford,), 4,500
    Cullman Symposium 1997, 250
Total: 9,669
                                 ______
                                 
    Chairman Tiberi. Thank you. So you were here when I was 
here.
    Dr. Hills. Yes, I was.
    Chairman Tiberi. Thanks for your testimony.

   STATEMENT OF DONNA NESBITT, EXECUTIVE DIRECTOR, CENTER OF 
   CURRICULUM AND ASSESSMENT, OHIO DEPARTMENT OF EDUCATION, 
                          COLUMBUS, OH

    Ms. Nesbitt. Good afternoon, Chairman Tiberi and Ranking 
Member Hinojosa. On behalf of State Superintendent Susan 
Zelman, I am pleased to have the opportunity to testify before 
this Committee on the importance of international education in 
the K-12 arena. K-12 also recognizes how international 
education is critical to the United States.
    Our economy, our security and our survival depend on 
interactions with citizens of other countries. It is estimated 
that one-sixth of the jobs in this country are tied to 
international trade. Globalization, with both its positive and 
negative impacts, is a reality.
    Global competence of students in classrooms today is vital 
if the United States is going to maintain its status in the 
world of the 21st century. Within the last 4 years the State 
Board of Education in Ohio has adopted academic content 
standards in seven areas:
    English, Language Arts, Mathematics, Social Studies, 
Science, Foreign Language, the Arts and Technology. These 
standards contain significant opportunities for making 
international connections in the K-12 classroom and for 
highlighting global issues.
    Each content area also has model curricula which helps 
educators gain a deeper understanding of the standards. Many of 
the exemplar lessons in the model curricula which are available 
electronically on our Instructional Management System have an 
international focus.
    In addition to that we have an assessment system in the 
State of Ohio that measures student progress on the standards. 
Our new Ohio Graduation Test in Social Studies contains world 
history, something that was never measured by our former Ninth 
Grade Proficiency Test.
    Teachers currently in the workforce must maintain and 
expand their expertise on international issues through 
continuing education. Imagine the case of a teacher who 
graduated from college just fifteen years ago. At that time the 
Berlin Wall had just fallen and the Soviet Union was intact.
    The world map at the time that this teacher attended 
college is very different than the world map in classrooms 
today. Not only has the map changed but the alignment of world 
powers and our national security concerns.
    This teacher needs opportunities to update content 
knowledge in order to teach students about world events today. 
As a teacher in a rural school district with few available 
resources, I took advantage of opportunities provided through 
Title VI centers to update my content knowledge because I 
wanted to make sure that my rural students were aware of the 
world beyond their county.
    Language instruction has taken on a new importance in 
recent years as the United States develops more social and 
economic ties to the global community and deals with heightened 
national security concerns. We are presented with new 
opportunities to collaborate on matters related to health and 
the environment as well.
    All of these opportunities also include the challenge of 
communicating across cultures in different languages. One 
fourth of the world's population has competence in English. 
Students who are proficient in more than one language have an 
increased opportunity for exciting careers and they allow the 
United States to be competitive in the world market.
    In order to achieve high levels of competency in a 
language, students must begin studying language earlier and 
continue to study longer with qualified teachers who can be 
trained through the work of the Title VI centers.
    The Ohio Department of Education has a vision that every 
school in Ohio will have a partner in another country in order 
to broaden the experience of educators and students. In the 
past year Ohio has initiated educational partnerships with 
Hungary and with Saitama, our sister-state in Japan, and we 
have recently signed a memorandum of understanding to encourage 
partnerships between Ohio schools and schools in Hubei, our 
sister-state in China.
    There is also an effort to increase the number of courses 
being offered in Chinese language. By helping schools to make 
these connections we are underscoring the need for students to 
learn about the world beyond our borders.
    The Title VI centers provide resources and programs for 
teachers updating their content knowledge and skills. In the 
past the Ohio Department of Education has collaborated with the 
Title VI centers to offer a summer Global Institute for 
teachers in K-12. The personnel in the Title VI centers have 
also made presentations for K-12 teachers at the Conference for 
the Ohio Council for Social Studies.
    These types of efforts reach a small but receptive 
audience. In international education we have several challenges 
and one is helping others to understand and be aware of the 
importance of international education and also being able to 
reach enough teachers in order to make a significant impact.
    One project in the planning stages is a website that will 
showcase international education in Ohio. There are many 
initiatives that may not be widely known beyond those with 
direct involvement such as the Federal program for the 
Fulbright Hayes Summer Seminars Abroad or connections with 
individual schools in Ohio have made with schools in other 
countries.
    We would like to use the website as a tool to provide 
information about these programs and links to assistance for 
educators who are interested in putting more emphasis on 
international education. Plans include linking this website to 
both The Ohio State University website and the Ohio Department 
of Education Instructional Management System.
    Teachers and students in Ohio benefit from programs of the 
Title VI centers and the Ohio Department of Education supports 
the continued funding of these centers.
    Thank you, Chairman Tiberi, for this opportunity to talk 
about some of the initiatives and benefits of international 
education as it affects Ohio's students and teachers. I will be 
happy to answer any questions.
    [The prepared statement of Ms. Nesbitt follows:]

 Statement of Donna Nesbitt, Executive Director, Center of Curriculum 
       and Assessment, Ohio Department of Education, Columbus, OH

    Good morning, Chairman Tiberi and Members of the Subcommittee on 
Select Education. My name is Donna Nesbitt, Executive Director of 
Curriculum and Assessment at the Ohio Department of Education. On 
behalf of State Superintendent Susan Zelman, I am pleased to have the 
opportunity to testify before this committee on the importance of 
international education.
    International education is critical to the United States. Our 
economy, our security and our survival depend on interactions with 
citizens of other countries. Students in our schools today will have 
even more connections to the world beyond the United States than 
earlier generations. It is estimated that one-sixth of the jobs in this 
country are tied to international trade. Globalization, with both its 
positive and negative impacts, is a reality.
    Global competence of students in classrooms today is vital if the 
United States is going to maintain its status in the world of the 21st 
century. International education includes the knowledge of world 
regions, cultures and issues as well as skills in language and the 
ability to interact successfully with people of different cultural 
traditions both inside and outside the United States.
    Within the last four years the State Board of Education in Ohio has 
adopted academic content standards in seven areas: English language 
arts, mathematics, social studies, science, foreign language, the arts 
and technology. These content standards which detail what students 
should know and be able to do contain significant opportunities for 
making international connections and highlighting global issues. Each 
content area also has a model curriculum, which helps educators gain a 
deeper understanding of the standards. Many of the exemplar lessons in 
the model curriculum which are available electronically through the 
Ohio Department of Education's Instructional Management System (IMS) 
focus on international content. Student achievement of the standards is 
assessed through our statewide assessment system. The new Ohio 
Graduation Test contains world history which was not a part of the 
Ninth Grade Proficiency Test.
    Teachers currently in the workforce must maintain and expand their 
expertise on international issues through continuing education. Imagine 
the case of a teacher who graduated from college just fifteen years 
ago. The Berlin Wall had just fallen and the Soviet Union was still 
intact. The world map at the time that this teacher attended college is 
very different than the world map in classrooms today. Not only has the 
map changed but the alignment of world powers and our national security 
concerns. This teacher needs opportunities to update content knowledge 
in order to teach students about world events today. As a teacher in a 
rural school with few available resources I took advantage of 
opportunities provided by higher education to update my content 
knowledge because I wanted to make sure that my rural students were 
aware of the world beyond their county.
    Language instruction has taken on a new importance in recent years 
as the United States develops more social and economic ties to the 
global community and deals with heightened national security concerns. 
We are presented with new opportunities to collaborate on matters 
related to health and the environment as well. All of these 
opportunities also include the challenge of communicating across 
cultures in different languages. One fourth of the world's population 
has competence in English. Studying other languages helps students 
develop cognitive skills and improve their academic achievement. 
Students who are proficient in more than one language increase their 
career opportunities and allow the United States to be competitive in 
the global market and provide for our national security. In order to 
achieve high levels of competency in a language, students must begin 
studying earlier and continue to study longer with qualified teachers. 
Ohio's new content standards in foreign language help schools to 
understand the need for early language instruction.
    The Ohio Department of Education has a vision that every school in 
Ohio will have a partner in another country in order to broaden the 
experience of educators and students. In the past year Ohio has 
initiated educational partnerships with Hungary and with Saitama, our 
sister-state in Japan and signed a memorandum of understanding to 
encourage partnerships between Ohio schools and schools in Hubei, our 
sister-state in China. There is also an effort to increase the number 
of courses being offered in Chinese language. By helping schools to 
make these connections we are underscoring the need for students to 
learn about the world beyond our borders.
    The Title VI Centers in Ohio provide resources and programs for 
teachers interested in updating their content knowledge and skills. In 
the past the Ohio Department of Education has collaborated with the 
Title VI centers to offer a summer Global Institute for teachers in K-
12. The Title VI centers have also made presentation at the Ohio 
Council for the Social Studies Conference. These types of efforts reach 
a small but receptive audience. There are several challenges that 
programs in international education face: elevating awareness of the 
importance of international education and reaching enough teachers to 
make a significant impact.
    One project in the planning stages is a Web site that will showcase 
international education in Ohio. There are many initiatives that may 
not be widely known beyond those with direct involvement such as the 
Fulbright Hayes Summer Seminars Abroad or partnerships that individual 
schools may have developed with schools in other countries. We would 
like to use the Web site as a tool to provide information about those 
programs and links to assistance for educators who are interested in 
putting more emphasis on international education. Plans include linking 
this Web page both to The Ohio State University Web page and the Ohio 
Department of Education Instructional Management System.
    Teachers and students in Ohio benefit from programs of the Title VI 
centers and the Ohio Department of Education supports the continued 
funding of these centers.
    Thank you, Chairman Tiberi, for this opportunity to talk about some 
of the initiatives and benefits of international education as it 
affects Ohio's students and teachers. I will be happy to answer any 
questions.
                                 ______
                                 
    Chairman Tiberi. Thank you. Thank you all again for 
testifying.
    Let me just get into the questioning by asking Dr. Ladman, 
who mentioned leveraging.
    Dr. Ladman. Yes.
    Chairman Tiberi. Can you expand upon that a little bit in 
answering a question that I pose to you based upon not only 
your written testimony but a little bit about what you talked 
about? Do you think there should be a portion of Title VI funds 
that are made available only for the purposes of trying to 
partner or, I think you would agree, leverage additional 
funding in the area of international education initiatives? You 
think we should look at that?
    Dr. Ladman. Yes, I think actually we did quite a bit of 
that already because I think, as I indicated before, not only 
on our campus we do that but by working at other units on the 
campus and sponsoring different activities.
    Chairman Tiberi. Excuse me. But do you think that we should 
earmark solely for that purpose within Title VI?
    Dr. Ladman. Are you speaking about leveraging with 
organizations off the campus?
    Chairman Tiberi. Yes. Yes.
    Dr. Ladman. OK. I see possibilities for doing that. One 
might be to work with, say, organizations like the Ohio 
Department of Education because clearly as we are working with 
them right there we are collaborating with them. They are using 
their money and we are using our money to carry something out.
    We also are able to work with other foundations or 
Government programs for Federal grants to bring programs in 
that we can use. I think really the real concept of leveraging 
is what the presence of the Title VI program on the campus does 
in helping us to work on the campus of the academic departments 
in developing courses, attracting faculty, building our 
capacity to do a better job of what you want us to do. By doing 
that I think this is where the funds really get leverage.
    In other words, for every million dollars you put in you 
are getting a lot more out, several million dollars out in 
terms of the output and so forth. I think that's important. It 
might be a little difficult if you were to put a certain amount 
of money into a program for purposes of going out and getting 
additional money and getting matching aid and only using it for 
that purpose.
    Chairman Tiberi. OK.
    Dr. Ladman. But we're the Title VI presence and when we 
have the capacity we use that capacity to go out and get funds 
to do additional things.
    Chairman Tiberi. Dr. Unzueta, you in your written testimony 
mentioned this concept as well. Can you give us your thoughts?
    Dr. Unzueta. My response to that is that I think it is a 
good idea but I don't know how it would be practically because 
the grant proposal is to be written at the beginning of the 
three or 4-year cycle and when would the leveraging occur?
    I think as Dr. Ladman already mentioned, the leveraging 
occurs anyways but it does in an indirect fashion. One way in 
which the grant competition does encourage some sort of 
leveraging is by targeting priority or competitional 
priorities, invitational priorities they are called, for a 
specific project.
    That could be, for instance, and we would welcome that at 
Ohio State, specific collaborations between area study centers 
and CIBER, area study centers and the language resource centers 
or area study centers and other specific units. I think that 
would be a good idea and a welcome idea.
    Chairman Tiberi. Just a follow-up on another area. You 
mentioned in your written testimony that Ohio State offers over 
30 languages and all six critical languages identified by the 
General Accountability Office and which types of professions 
are graduates employed? What are they doing using language 
skills that they gained here at Ohio State? Have you tracked 
that at all?
    Dr. Unzueta. One indicator would be a call I received from 
a colleague, the chair of the Station Department. She also 
alludes to the sense of globalization many of you were 
referring to at the beginning. The Monterrey Institute of 
Technology in Mexico has called Ohio State looking for Chinese 
and Japanese instructors. Our graduates with MA degrees in 
particular so that's the one way of tracking how our graduates 
are doing.
    My experience in the Department of Spanish and Portuguese 
and for Latin American Studies is that, indeed, our graduates 
are being placed at very competitive institutions as well as in 
high schools and smaller colleges around the country.
    Chairman Tiberi. That's great. Thank you.
    Dr. Hills, you talked a little bit about OSU's CIBER 
program. Can you expand on that? Can you talk a little bit 
about some of the initiatives that you are dealing with today?
    Dr. Hills. Um-hum.
    Chairman Tiberi. And how that ties into the international 
education area.
    Dr. Hills. Some of these things we do in collaboration with 
other CIBERs. That's one way to leverage the funds. The funds 
when you think about it in the larger scheme of things are 
fairly modest so if you needed to do some big projects like 
national conference, you really need to do that in 
collaboration with others.
    Some of the things that we've done, the University of 
Illinois we have co-sponsored with a number of other CIBERs the 
National Security Conference last year which was very 
interesting. It was both an academic and applied conference. 
The National Trade Policy Forum is moving about the country.
    It started in North Carolina. I attended that conference. 
It is a conference for state officials preparing them for the 
challenges they face when changes in tariffs and free trade 
agreements affect the workforce and the state. That's a very 
interesting thing. We do some things on our own.
    I mentioned the small or medium-size business outreach 
program. We have initiated a program here called TARGET. I 
don't remember what that stands for now but it is an outreach 
program for small and medium-size businesses to learn from each 
other and take the resources from the university by meeting 
here once every month or once every 2 months. We've now 
expanded that program to Dayton, the OSU Mansfield campus. Now 
we're going to have a program like that in Cleveland so it is 
becoming statewide.
    On the curriculum side I've just come back with my students 
from China with an emerging markets class. I take 18 students 
every year and have for the last 10 years to a different 
emerging market. They are in the process of writing cases as we 
speak based on the firms that we visited.
    This has created an entirely different sort of character to 
their MBA training at Ohio State. We have now expanded that to 
an undergraduate course also in emerging markets. Without the 
CIBER funds we would not be able to support those very 
expensive kinds of experiences that are extremely enriching for 
students.
    In June I'll be taking some of my faculty colleagues to 
South Africa and we will have a seminar, a 10-day seminar 
there. None of these five faculty members have ever been to 
that part of the world or have had the possibility of thinking 
about Africa so that's going to be a very fine opportunity for 
them.
    Chairman Tiberi. Thank you, Dr. Hills.
    Ms. Nesbitt, can you speak a little bit about real life 
experiences that children have who are exposed to international 
education, foreign language both from the perspective as a 
teacher, from your perspective as a teacher, and now a state 
administrator?
    Ms. Nesbitt. Well, I think that the research clearly shows 
that students who are instructed in learning foreign languages 
at early ages that it has a positive impact on their overall 
academic achievement. Their knowledge of international issues 
is just so critical in broadening their perspective. Even if 
they never were to travel abroad or engage in that way, it also 
helps them to understand the people that are going to meet 
right here in Ohio as we become a more and more diverse state.
    Chairman Tiberi. Very good. I am going to yield for some 
questioning to my colleague, Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Mr. Chairman. I am pleased that in 
the first round you asked such good questions that allowed the 
panelists to expand on what they wrote in the materials that I 
read prior to the hearing. I want to start with Donna Nesbitt.
    I am glad to hear that Title VI centers here in Ohio are 
working with the Ohio Department of Education to offer summer 
global institutes for teachers in kindergarten through the 12th 
grade. How effective are they and are the results available to 
other states of education throughout the country?
    Ms. Nesbitt. The global institute that I spoke about was a 
program that we did several years ago. It is not currently an 
annual program but our work with the Title VI centers has been 
on a number of things over the years. I was using that as one 
particular example. I believe the last one of those was several 
years ago.
    As the Department entered into the development of academic 
content standards and some of our other initiatives, we didn't 
have the staffing to continue that but we certainly would like 
to move back in that direction.
    Mr. Hinojosa. At what grade are you recommending that they 
have foreign language to start a second language? If they are 
English speakers at what grade do you all recommend that they 
start a foreign language?
    Ms. Nesbitt. In our academic content standards for teaching 
foreign language we have written them so that they can be 
accessed at a number of grades. We would recommend that it 
happens as early as possible, as early as kindergarten. We know 
that the reality in school districts with short funding and 
resources is that is not always possible.
    The standards are written so that if a student begins 
foreign language instruction in the early grades, the standards 
are there to show how they need to develop throughout their 
academic career so that we are identifying more than the usual 
2 years that maybe students would have gotten traditionally at 
the high school level. We certainly want to encourage that.
    Mr. Hinojosa. Let me tell you that earlier this week we had 
a hearing in Washington on Head Start because Head Start will 
be reauthorized. We saw the listing of the monies invested in 
early childhood education in Ohio is at the very top in the 
amount of money that is being spent in early education. They 
put No. 2 and No. 3 to shame because they are head and 
shoulders higher than the other states.
    I think I saw a list of 25 states out of the 50 and I was 
so impressed. So if that's the case, you need to help us get 
other states to encourage that a foreign language be available 
in the primary grades. I'll give you a specific example. I have 
two young children. I have five all together but the two 
youngest are 9 and 11 years old, third grade and 5th grade.
    We moved them from the Catholic School where they were 
attending in Washington to the Dual Language Program at Oyster 
Bilingual Elementary School. When we arrived on that campus 
they both crossed their arms and they asked, ``Daddy, what in 
the world are we doing here? We don't understand the words they 
are saying here.''
    Within 2 years they have exceeded grade level of 3 and 5 in 
reading in Spanish and writing and poetry and declamation and 
all of that. As a result of some move that we made, we have 
just moved to Virginia in Fairfax County which is one of the 
best in Virginia, but they don't offer foreign language until 
they get to middle school so there is a lack in grade programs 
throughout the country where what you all are doing here is not 
being implemented and we need it in order for this 
international program. Every one of you have, in my opinion, 
shown the importance of languages.
    If you teach 30 languages, as Dr. Hill mentioned earlier, 
there's no doubt that if we could just teach the top five that 
are spoken the most which is Mandarin Chinese, English, 
Spanish, and I don't know fourth and fifth, but for sure I know 
those three rank as No. 1, two, and three. We need your help so 
that Departments of Education throughout the country can start 
talking about this and adding it to the program.
    Dr. Hill, I was so impressed to hear that you have been 
with Ohio State 30 years and have seen the improvements that 
you all have made. Taking students to emerging markets such as 
you did in China and maybe next year to South Africa I'm 
impressed.
    On our education Committee we've had opportunities to go 
with Chairman Buck McKeon to China a month ago and we visited 
seven universities while there. We were there for 8 days. We 
were so impressed with the growth of China with a 9 percent 
GDP.
    With that 9 percent they are wanting to send their graduate 
students all over the world but they complained about not being 
able to send as many as they used to to the United States. They 
said that the numbers have dropped 38 percent that used to come 
to the United States to do masters and Ph.D. programs. Since 9/
11 we really tightened up on immigration and it has been very, 
very difficult.
    I was very pleased to hear your comments and your programs. 
I wish that you could come to Washington and testify in one of 
our Committees. I know that Chairman Tiberi and the Select 
Education Committee would consider a request if some of us make 
that so that we can get into the record what is being done here 
at Ohio State with taking our students abroad as you seem to be 
doing so well.
    Dr. Hills. I would be happy to do that if you would like. I 
would be very happy.
    Mr. Hinojosa. Do you have any programs that seek to develop 
expertise on the North American Free Trade Agreement or other 
treaties that we just signed with the Pacific rim countries?
    Dr. Hills. At the current time there are CIBERs who have 
specialized in that but our collaboration has been largely with 
the effects of the trade through the North Carolina conference 
that I mentioned. We will host that conference here in 2008. 
That conference will be hosted here. We will be ramping up for 
that and a good bit of what we will be doing is examining the 
effects of those international trade agreements on Ohio in this 
region.
    Mr. Hinojosa. When you do, look at the impact that NAFTA 
has had on the winners and losers because there are winners and 
losers under our agreements of trade. South Texas is a good 
case study so that you can see what has happened there with the 
movement of the agriculture laborious products that we use to 
grow and third biggest in the nation. We have wiped that 
industry out. And the textile that affected North Carolina 
affected us. We lost 10,000 jobs in South Texas and 10,000 jobs 
in El Paso because textiles just disappeared.
    Dr. Hills. Yes. We heard a good bit about that in North 
Carolina.
    Mr. Hinojosa. That would be a good case study for some of 
your graduate students. I enjoyed your presentation.
    Dr. Fernando Unzueta, I want to say that your moving to 
Ohio here the last 15 years, as I understand, is a big loss to 
the State of Texas because I understand that you were running 
Latin Studies at the University of Texas at Austin where I 
graduated. I have a BBA and an MBA from UT Austin and that's 
why I was kidding my Chairman that we are running and running 
trying to catch up with Ohio State so we can buildup the 
60,000. I see that we got behind when we lost you to Ohio.
    Dr. Unzueta. I was a student there but I would like to 
consider myself a bridge between Texas and Ohio and feel proud 
for it.
    Mr. Hinojosa. I would like to ask you, Dr. Unzueta, would 
you please briefly describe some of the course work that your 
students would take in Cuernavaca, Mexico, as it regards NAFTA 
and are those courses offered both in Spanish and English?
    Dr. Unzueta. The study abroad program in Cuernavaca is 
really basic and intermediate language program. However, in 
response to your question to Professor Hills, the Center for 
Latin American Studies does offer a NAFTA program outside 
Mexico City and Professor Ladman is actually the one who 
started and implemented and directed that program for several 
years. Since then he's moved on but the program continues very 
strong.
    In Cuernavaca the instruction is in Spanish for basic and 
intermediate language courses. In the NAFTA in Mexico City, or 
outside Mexico City, instruction is mostly in English for a 
broad range of international study students and students from 
the College of Agriculture.
    Mr. Hinojosa. Let me see if I understand what you said. In 
Cuernavaca it's in Spanish but in Mexico City it's in English.
    Dr. Unzueta. Yes, because they are different programs. We 
have basic Spanish programs where we send large number of 
students. I'm talking about 100 every year to both Cuernavaca, 
Mexico, and to Quito, Ecuador. We have the NAFTA program that 
send about 15, 20 students every year and that course of 
instruction is mainly in English.
    We have over two dozen study abroad programs through Latin 
America and some of them are more specialized than others. Most 
of them are in Spanish. A few are in English.
    Mr. Hinojosa. If you would give us after this forum is 
completed, this hearing, the names of the universities that 
you'll have collaborated with in Cuernavaca and Mexico City, I 
would be interested because we have a lot of Congressmen and 
even some senators for going into Mexico to study a week or 2 
weeks in emersion Spanish trying to improve their command of 
the Spanish language.
    I was pleased to hear that there are programs in Mexico 
City that Ohio State is collaborating with. I would like Dr. 
Ladman, if both of you would give us those names. I'll share 
them with our Members of Congress.
    I also want to say to you that 2 years ago when my wife and 
I decided to send our children to a dual language program we 
went to Cuernavaca for 3 weeks in August of 2003. They began to 
build a vocabulary in Spanish. They found it to be very 
difficult but they enjoyed living in the home of a family in 
Cuernavaca and it was just a wonderful experience and they want 
to go back this year in 2005 now that they have such a good 
command of Spanish. I was very interested in reading your 
materials.
    My last question to you, Dr. Unzueta, elaborate how your 
summer language programs collaborate with the college of 
education for the teaching of Math and Science which is very 
important to us in Congress in our Education Committee.
    Dr. Unzueta. This is a unique program in a sense. The core 
of the program is that summer seminar abroad for Spanish 
teachers that a colleague has been conducting for 14 years now. 
He takes about 20 teachers from the State of Ohio and around 
the country really to different Latin American countries. That 
program is oriented toward Spanish instruction, Spanish 
teachers.
    However, since this was run through the senator and the 
colleague who had been running and developed this program was 
our outreach coordinator or Director of Outreach of the Center 
for Latin American Studies we thought about the idea that it 
would be good to promote the same type of model for teachers in 
other disciplines.
    We started that program for teachers of Math and Sciences 
from the same basic population in coordination with a couple 
professors from the College of Education who prepared packages, 
instructional materials, designed the course, take the group of 
15, 20 students to Central America or to Mexico and they 
studied there the traditional ways of doing math by 
Mesoamerican civilizations. They bring those into the present 
on how to communicate that information to teachers across the 
state.
    The next step is another program we have designed on 
environmental issues in the Amazon. Hopefully this summer, if 
not this coming summer the following summer, we'll be sending a 
similar group of social science and environmental studies 
teachers on a trip to the Amazon with a faculty member from the 
School of Natural Resources who specializes in soil 
preservation and other ecological issues.
    The model is the same. They take graduate level courses, 
the high school teachers or elementary school or middle school 
teachers do. Not only that but they also ask to produce lesson 
plans. That's their homework. Instead of turning in a research 
paper or essay they have to produce lesson plans that they can 
then use in the classroom.
    Mr. Hinojosa. I want to say that I'm very interested in 
inviting Ohio State to collaborate with a program called HESTA, 
Hispanic Engineering Science Technology which is by one of the 
branches of the University of Texas at Edinburgh and they have 
their fifth year of this program and they have been 
collaborating with the La El Tecnologico de Mexico because they 
produce so many engineers.
    This particular program I'm looking for some--I'll find it. 
I brought a copy of that 2005 program. From just listening to 
what I just heard here, I think you would probably--the people 
who make that decision would find it an enrichment to some of 
what you all are doing to collaborate with somebody like UT 
Edinburgh because that one has about 20,000 GEAR UP students 
and you all have them here in Ohio, the GEAR UP program in 
public schools, 7th and 8th graders.
    They direct a lot of the students to look at that as a 
career path at the 7th and 8th grade where they start taking 
their algebra. We have found that there are more girls now in 
it. We completed 4 years with HESTA and the fifth year we now 
have more girls than boys getting started in that program 
because they have found that it's interesting, challenging, and 
it pays very well. We would like to invite Ohio to take a look 
at that.
    Dr. Unzueta. We would be happy to explore that possibility. 
We just signed an agreement with East Tech which is an 
engineering science and technology program out of the 
University of New Mexico, another Title VI center, for 
collaboration on technology across the Americas basically.
    Mr. Hinojosa. The last thing I'll say to this and move on 
to the next question with Dr. Ladman is that the students in my 
area are 80 percent Hispanic so you can see why we are so 
interested in the Math and Science because they find that to be 
easier than almost any of the other fields even though they do, 
of course, like other careers.
    Dr. Ladman, I saved you for the end because I have some 
very difficult questions for you. I congratulate you and the 
university for developing such a broad and high-quality effort 
using Title VI funding.
    However, our national investments in these programs seem to 
be, in my opinion, highly inadequate for our status as the 
world's superpower and we have difficulty in getting the 
appropriators to leapfrog those numbers so that we can get more 
students into these programs. How can you and your colleagues 
help us in bringing attention to the need for additional 
financial resources from Congress?
    Dr. Ladman. OK. I fully agree with you in the sense there 
is a shortage of resources relative to the national need. I 
think there are several ways. One of the most effective, 
perhaps, is the coalition that was referred to earlier, 35 
different organizations that are very interested in this.
    One of the objectives is to try to promote that agenda, as 
a matter of fact, to increase the amount of funding available. 
I think by working with them and so forth we are able to try to 
influence our legislators to move in this direction. Of course, 
it's very difficult and times of short funds and how to spread 
those funds around.
    I really think what's happening, and this is something that 
I think is very important, you know, first of all, it was 
Sputnik and it was the cold war that got the Government really 
interested in international education by sponsoring the Defense 
Education Act of '58. Title VI came out of that.
    Then it went into the 1961 Fulbright Hayes Act where area 
studies got added. Then we had the language centers and the 
business program later on. I think since 9/11 there has been an 
awareness in this country about the importance of international 
education and the importance of language education and the 
importance of our people learning these less commonly taught 
languages.
    I think it's the ground swell of opinion out there whether 
it be from people like us or people who are experts or business 
people are demanding this that will cause the request to come 
to Congress to help make this happen. And I am delighted that 
we can say at Ohio State University that we are really 
participating in this because of the fact that we've got all 
these less commonly taught languages.
    We are teaching people Uzbek, Hindi, Urdu, Arabic, a number 
of languages that are very important in the Middle East and 
Central Asia. Some of the people, for example, we have in our 
Slavic and Eastern European Studies Center Program an MA 
program and we are training each year officers of the United 
States military who are coming here to get that degree.
    One of them right now is serving as military attache' in 
one of those countries in that region. If we can show this is 
the sort of thing we're doing, I think this will help our 
cause.
    Mr. Hinojosa. You mentioned that we should use the 30 
colleges that are making that group are moving this 
international studies forward. Are they prepared to support the 
recommendation and reauthorization of international studies 
that there be an advisory group that would probably put in some 
type of accountability so that the appropriators can justify, 
what I'm saying is leapfrog the funding to keep up with the 
demand and the need that we have in our country to be the super 
power?
    Dr. Ladman. As you may know, this is somewhat a contentious 
issue.
    Mr. Hinojosa. That's why I gave you the last question.
    Dr. Ladman. Anyway, yes. I think basically we understand 
the reason why in principle that they are Government-funded 
programs, there can be a Government-appointed advisory group. I 
think our biggest concern is the sense of how those people are 
appointed, what their mandate is and so forth, and who they 
report to because, you know, we are very concerned that this be 
an advisory committee that keeps us on track and doing the 
right things for international education and so forth.
    I guess, as you know, initially there was considerable 
reaction against it. We understand the reason why there should 
be an advisory committee and we're just concerned that it have 
the right sort of composition, the right reporting lines and so 
forth.
    Mr. Hinojosa. Thank you, Dr. Ladman. Mr. Chairman, thank 
you for being so generous in allowing me a little extra time to 
ask questions. I had 3 hours at the airport in Washington. 
That's why I got here so late so I had time to read all their 
papers and ask a lot of questions. I've got in the second round 
one question equally difficult as this last one that I asked. I 
yield back, Mr. Chairman.
    Chairman Tiberi. Thank you. Just to follow up on Mr. 
Hinojosa's last question, Dr. Ladman. Off the top of your head, 
if we desire legislation, and I don't need all the specifics, 
but let's say the Board would report to the Secretary of 
Education, would that be something that you would support?
    Dr. Ladman. Definitely.
    Chairman Tiberi. Yes, as opposed to the way it's been 
drafted?
    Dr. Ladman. Um-hum.
    Chairman Tiberi. OK. Let me ask a question to all four of 
you just to get your thoughts. It kind of relates a little bit 
to a question that my colleague asked. It's going a little 
beyond that looking at the big picture. You all are exposed to 
this in one way, shape, or form. Let me just answer part of it.
    Money is part of the answer so let's take that off the 
table. The other part I'm trying to get your insights on is how 
can we engage all disciplines out there on the campus of Ohio 
State University at all levels in gaining a greater global 
awareness and realization of the world's culture and societies 
beyond our own through the different disciplines whether it's 
medicine or technology.
    You mentioned technology before. How can we do a greater 
job through Title VI if that's the way? Then the second part of 
that question is how do we as policymakers and you as academics 
do a better job of selling the importance of what we're talking 
about today to the general public?
    If you go out five miles from here into a neighborhood and 
talk to people about this subject, their eyes glaze over at the 
very best. How do we get more disciplines involved, No. 1, 
through Title VI and how do we get the general public to 
understand the importance of what we're talking about here 
today? Let's just go down the line. Dr. Ladman.
    Dr. Ladman. I might start with the first question and that 
is the way we view our international education programs at Ohio 
State University are that we are targeted through Title VI 
centers to train specialists and we currently put focus on 
that. But I should add that we are very concerned about 
internationalizing the whole campus and that includes students 
from all across the campus having the proper exposure.
    One of the ways in which we are really putting a tremendous 
amount of emphasis is study abroad programs because we feel 
that this is one of the ways in which you get the most bang for 
the buck in having someone have a realization of how different 
other countries are and understand their own country much 
better so we've put in a major effort there.
    We are also working on ways in which we can integrate the 
international education more effectively into the curriculum. 
There's a study going on right now and the faculty committee 
that's doing this and this is part of the agenda that we're 
working there.
    It's a tough agenda but one of the things I think is 
important, you know, we think we see this as different clients. 
There are a lot of these specialists in international like 
Angela was for example. You've got the clients, for example, 
people in law school that should know something about 
international.
    We've got the engineers. We've got to create programs that 
allow each one of those groups to be able to relate to 
international in a context which is meaningful to them. That 
plus our general studies curriculum which allows them to do 
that.
    Another concept that I think is very important that offers 
a lot of possibility is offering double majors where students 
could major in a degree program, say, in history plus 
international studies, engineering plus international studies. 
That forces them into the language and so forth. I think 
there's a lot of potential for doing things like that, too. In 
answer to your first question, I think those are some ideas 
that I would have to share with you on that.
    Chairman Tiberi. How about the second question?
    Mr. Hinojosa. How to sell the program.
    Dr. Ladman. How to sell the program. OK. That is a tough 
one because, you're right, the many people out there--I think 
everybody, as I said before, after 9/11 has awareness. The 
problem is they ask how to do it and should the Federal 
Government be doing it is the question that they're asking 
compared to other needs.
    I think probably the most effective way is for us as a 
nation from our leadership on down in representation to just be 
talking about the importance of us in a global world and how we 
interact with that global world and the importance of education 
occurring.
    You can see, for example, within the Department of 
Education that Donna Nesbitt represents, they are wanting to 
incorporate international at that point. We're going through 
our outreach program and I should indicate to you that Ohio 
State in its strategic plan, which we call our academic plan, 
has P-12 education as a key point.
    The Title VI centers, even the centers without Title VI 
have the mandate within the university to do the international 
part of that in combination with our language departments and 
so forth. We are real proud of what we do in that area. As a 
matter of fact, leveraging, I've got two people in my office 
that aren't paid by Title VI funds that work with the Title VI 
centers to carry out Title VI activities, plus each of the 
centers have someone in their office, too. That's an example of 
how important it is and how we believe in it.
    Sorry, Donna. I must correct you on one thing. Even though 
the Department of Education helped us get this program going, 
when it wasn't possible for the Department to continue, we 
picked it up and are doing it so we continue to do it every 
summer and it's very successful.
    Dr. Unzueta. On the first point I would say, at least at 
Ohio State, the program as it is structured right now already 
has a push toward doing languages and internationalize 
education across the disciplines.
    Let me give you an example. The CLAS fellowships tend to go 
toward very advanced language specialists or toward 
intermediate language specialists or in the professions, future 
lawyers, future doctors, future veterinarians. That happens 
perhaps a lot better at an institution so diverse and so large 
as Ohio State as any professional school you can think of.
    Priorities within the grant competition often in the past 
have also tried to target nontraditional disciplines. Not the 
language programs or not international studies programs. It's 
not that we are going to abandon those but let's bring other 
disciplines on board.
    Engineering, for instance, has signed several study abroad 
agreements with Latin American institutions over the last year 
or two at Ohio State which is sort of unusual.
    Two or 3 years ago there was not much going on, at least 
nothing recorded or coordinated but the engineering school 
named a new associate provost in their college precisely to 
promote international issues.
    I guess what I'm trying to say is that the university as a 
whole is also aware of the need to internationalize all 
education and not just the traditional language in area study 
programs.
    As to how to see the programs, I will also acknowledge that 
is the tough job. I think continuity of programs certainly 
helps. Once we have the continuity and you have the numbers 
that we do year after year after year in, say, outreach 
activities that go to the community and you see this is a Title 
VI program funded by the U.S. Department of Education, that, I 
think, should help. It's not something you get the next day but 
it's a long-term process.
    Dr. Hills. I think the legislation for the CIBER program 
has been very well crafted by the Congress because it includes 
a number of mandates that require each CIBER to collaborate 
with other parts of the university.
    In my testimony I constantly refer to the CIBER as the OSU 
CIBER, not the Fisher College CIBER. The OSU CIBER is mandated 
by Congress to do work with area studies, to do work with other 
professional schools, and as a consequence in order to receive 
the funding we have to demonstrate that we are doing that and 
that we plan to do that. So congratulations.
    The second, how do you sell the program? I came to this 
testimony directly from a program this morning that we were 
doing called, ``You Can Go Global.`` It was a program for 
minority students at Ohio State who often feel that it's very 
difficult to get outside the United States.
    We found in today's program that there is absolutely no 
substitute for experience. Getting the experience changes 
people. We had a panel of businessmen and women today who gave 
testimony to the fact that their experience had changed them 
dramatically, permanently, and long-term by doing business 
outside the United States, by having experiences with the Peace 
Corps, by the Fulbright Program which I will take advantage of 
next year actually.
    All of these kinds of experiential types of things are 
necessary to get people outside this very large and sometimes a 
bit insular country to see that the world out there is quite 
different than we might imagine.
    Chairman Tiberi. Thank you.
    Ms. Nesbitt. Chairman Tiberi, I would like to address that 
from the K-12 perspective. As you know, we have competing 
priorities trying to meet the requirements of No Child Left 
Behind and educate our students in reading and mathematics. I 
think that we can see international education and present it to 
educators in a way that they see it not as an add-on but as 
something that can be integrated in what they are doing on a 
daily basis. When they are reading stories in the classroom 
that they are reading stories about children in other countries 
and, as we mentioned before, the early education in other 
languages.
    There is also a national effort to promote international 
education that involves the National School Board Association 
and others. One of the things that I think is really effective 
is to have program models that show people instances of where 
this is being done and how it can be done effectively.
    I know that the Goldman Sachs Awards each year are 
highlighting programs in international education at every level 
from the early elementary, middle school, high school, and at 
the college level. We are starting to build sort of a body of 
what works in this arena.
    I think as Dr. Hill said, those experiences are so 
important and to hear about Math and Science teachers being 
able to have those experiences that I had as a Social Studies 
teacher to go abroad just hearing the media in another country 
and knowing how events may be reported on differently. I 
happened to be in Japan during the hand over of Hong Kong and 
watched it on Japanese television. That's a very profound 
experience seeing that from an Asian perspective.
    As far as selling to the general public, I think that 
really is a challenge but there has always been that challenge 
with new ideas. A small but dedicated group of voices that are 
continually heard over and over eventually becomes what people 
are starting to refer to as the tipping point when at some 
point it's going to be a more widely espoused sort of attitude 
that I think we will look back and realize and think that maybe 
there was never a time that we didn't think that way.
    Chairman Tiberi. Thank you. That completes my questioning. 
Now for the really tough questions I'll turn it over to my 
colleague.
    Mr. Hinojosa. Well, Dr. Ladman, being that you are the 
highest ranking here for Ohio State University. My concern as 
we have been going through the process of reauthorization of 
higher education is that there is a question of some 
legislation that would combine the definition of an institution 
of higher learning into one.
    Presently we have two definitions. One for the for-profit 
colleges and universities, what you know as proprietary 
schools. Then we have another definition for nonprofits such as 
Ohio State University, our community colleges. Those are the 
others.
    The idea is to have one definition for all colleges of 
higher ed. If that were the case then, of course, there would 
be competition in the existing monies that were available for 
Ohio State and all nonprofit colleges and universities.
    What are you and others of your colleagues in colleges and 
universities saying in talking about this legislation? What is 
the feeling out there? What is the pulse?
    Dr. Ladman. I will have to plead that I really haven't 
thought about that particular issue so I'm not in a position to 
respond because I've been thinking of it in terms of the 
universities like our own. We do compete, obviously, with 
private colleges, the Ivy League colleges and so forth, for the 
competition.
    One of the things about the competition is that the Title 
VI program is purely competitive so you compete on your merits 
and your capacity to deliver. I think if the program were 
opened to schools other than the ones that are presently in 
there, I think they would have to compete on their merits. I'm 
guessing that would be the way it would work out.
    Now, fortunately some of the universities like ours and a 
number of others who built this capacity clearly have an 
advantage but we would really have to work very hard to 
maintain that advantage because for everyone of us that wants 
this program, there's another two out there that are applying 
that aren't getting it so it's a very competitive process. That 
means that our universities have to make special commitments 
and counterparts and so forth to do what we need to do to make 
this happen.
    Mr. Hinojosa. I appreciate your honesty that you haven't 
thought about it but I want you to think about it because last 
year the funding was $107 million for this particular program 
that we are discussing to day. This year in 2005 the funding 
went up $1 million to $108 million.
    In the proposed budget for 2006 the administration wants to 
level fund it at $108 million so it doesn't even take care of 
inflation rate. So as we understand it, should the definition 
change? It's not just going to be the colleges and universities 
who have competed based on abilities. You are going to bring in 
about some thousand proprietary schools and colleges that also 
will have the right to compete for whatever Federal money is 
available that they have not been able to compete in the past. 
They simply operate their colleges and universities for a 
profit and they have been growing by leaps and bounds. Give 
that consideration.
    I think my other question, Mr. Chairman, would go to Ms. 
Nesbitt. You have also been talking about the idea that high 
schools are antiquated, that they are not keeping up with the 
changes that have occurred in globalization, international 
studies, international competition, etc.
    As a result of that, the graduation rate of our Hispanic 
high school students and African American students has dropped 
to about 50 percent based on studies made by Harvard and other 
groups.
    The idea is, I think it was Bill Gates and Melinda Gates, 
gave New York City $50 million to do a pilot test and see if 
they could take those very large high schools and have schools 
within high school. If you had 2,000 students, possibly have 
four with 500 students. How do you all feel about that here at 
Ohio Education Agency?
    Ms. Nesbitt. Were there are several issues related to that. 
The State Board of Education in Ohio during the last year 
convened a group which included representatives from the 
business community, higher education, and others to study high 
schools in Ohio. That group issued a report. I believe the 
title is, ``Report on High Quality High School.''
    They did identify that issue of smaller schools as one of 
those issues and they laid out a plan for high school reform 
that the State Board of Education has embraced and we will be 
implementing over the course of the next few years.
    In addition to that, I believe, and I would have to provide 
for you at a later time, information about some of that money 
from the Gates Foundation that is being implemented for the 
same purpose here in Ohio in some of our urban settings where 
they are looking at the smaller schools within a school.
    I believe they are also collecting data as that is 
implemented to see what effective that has on issues such as 
dropout rate. We would be able to provide for you the current 
status of that and where you might get further information at a 
later date.
    Mr. Hinojosa. I thank you for your response and we would 
love to have your information. I would be indebted to you if we 
could see that in writing.
    Mr. Chairman, I yield back the balance of my time.
    [The information referred to has been retained in the 
Committee's official files.]
    Chairman Tiberi. Thank you, Mr. Hinojosa. Before we wrap 
up, I just want to make a few introductions, a couple of Ohio 
State introductions. Dick Stier with the Government Relations 
Program has been here--how many years have you been here, 
Dick?--has been wonderful to work with as a member of this 
Committee.
    Dick and Stacy Rastauskas who is somewhere. I'm not sure 
where she went. I want to thank you for helping put this 
together today, getting the witnesses and the room and all the 
other details. We really appreciate that.
    Another gentleman who has played an important role in my 
life and I think he's back in the back. He was a professor of 
mine. Yeah, that is. I thought that was you back there. A 
professor of mine in the Foreign Languages Department, Dr. 
Luciano Forena. Please stand. A professor of mine. You can 
imagine what he taught me. He also gave me my first communion 
back here in Columbus more years than I will care to remember. 
A long time ago. He has played a couple of important roles in 
my life. Dr. Forena, very nice to see you here today as well. 
Very distinguished man.
    Again, thank you to the witnesses who are taking time out 
of their busy schedules to be with us today. We really 
appreciate your willingness to be part of this. We expect that 
the higher ed reauthorization will be with us some time in the 
fall and your testimony today, your written testimony, your 
comments, your answers to the questions will help us formulate 
what I believe will be a bipartisan bill that will hopefully 
strengthen what you do on a day-to-day basis.
    Thank you again to my colleague for coming to Columbus, 
Ohio, Mr. Hinojosa, for your participation and your staff's 
participation. We certainly appreciate your willingness and 
your busy time away from your family and your constituents as 
well.
    Mr. Hinojosa. Thank you, Mr. Chairman. It's been very 
enjoyable. I look forward to hosting you and the staff in Texas 
in about 2 weeks, or maybe less. Just as we are going to break 
bread this evening at an Italian restaurant, I invite you to 
break bread with us in South Texas with some of the finest 
Mexican food you have ever eaten. We look forward to it.
    Chairman Tiberi. I'll take you up on that. If there is no 
further business before us today, with that this Subcommittee 
stands adjourned. Thank you.
    [Whereupon, at 3:51 p.m. the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
